<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 113-554]
[From the U.S. Government Publishing Office]





 
                                                        S. Hrg. 113-554

                      THE SITUATION IN AFGHANISTAN

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2014

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         



        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                           U.S. GOVERNMENT PUBLISHING OFFICE
93-176 PDF                     WASHINGTON : 2015                           
  
__________________________________________________________________________________________  
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
  http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
  U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
  E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  

  
  
  
  
  
  
  
  
  
  
  
  
  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)

  

                            C O N T E N T S

                               __________

                             march 12, 2014

                                                                   Page

The Situation in Afghanistan.....................................     1

Dunford, Gen. Joseph F., Jr., USMC, Commander, International 
  Security Assistance Force......................................     3
Questions for the Record.........................................    47

                                 (iii)


                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Manchin, Shaheen, Donnelly, Kaine, Inhofe, McCain, Chambliss, 
Wicker, Ayotte, Fischer, Graham, Vitter, and Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We welcome today 
General Joseph F. Dunford, Jr., USMC, Commander of the 
International Security Assistance Force (ISAF) and U.S. Forces 
in Afghanistan, to hear testimony on the security situation in 
Afghanistan. We thank you, General Dunford, for your decades of 
great service to our Nation.
    This committee has held regular hearings on Afghanistan 
over the years. More than 2,200 Americans have given their 
lives there, and thousands more have been wounded. Despite 
those sacrifices, and despite the fact that Afghanistan 
harbored the terrorists who attacked our Nation in 2001, a 
recent Gallop poll showed that for the first time, a plurality 
of Americans believe that sending our forces to Afghanistan was 
a mistake.
    I do not share that view. More importantly, neither do the 
Afghan people. A recent public opinion poll in Afghanistan 
shows that a large majority of Afghans believe the conditions 
in the country have improved over the last decade.
    Our troops in Afghanistan, working with Afghan Forces and 
the forces of other coalition countries, have taken critical 
steps to deny safe havens to terrorists and ensure that 
Afghanistan does not again serve as a sanctuary for terrorists 
seeking to harm the United States. Indeed, there are a number 
of encouraging signs of continued progress in Afghanistan. 
During last summer's fighting season, Afghan Forces prevented 
the Taliban from seizing control of any urban area or district 
center. A report this month by the independent Center for Naval 
Analyses concluded that, ``For a force that is very much still 
in its infancy, the Afghan Security Forces's performance last 
year--judged on its own merits--should be considered a 
success.'' In a poll released last month, large majorities of 
the Afghan people expressed confidence in their army and their 
national police.
    Better security has meant improvements in Afghan society 
and the economy as well. More than 8 million Afghan children 
are now in school, eight times as many as in 2001. Under the 
Taliban, virtually no Afghan girls received an education; now 
2.6 million girls are in school. In 2001, Afghanistan had 
20,000 teachers, all male; today there are 200,000 teachers, 
including 60,000 women. U.S. assistance has helped build or 
refurbish nearly 700 schools across Afghanistan. Maternal and 
infant mortality has declined dramatically. The average Afghan 
has a life expectancy now of 62 years, compared to 45 years 
under the Taliban. Only 7 percent of Afghans support a Taliban 
return to power.
    Now, how is it that a large majority of the Afghan people 
think that conditions in Afghanistan are improving when most 
Americans do not? Unfortunately, the American people rarely 
read about positive developments in Afghanistan. Instead, the 
media focuses almost exclusively on negative incidents, 
depriving the American people of the sense of accomplishment 
that they would receive if they were provided a balanced view. 
As a result, our troops have not received the recognition for 
the positive changes in Afghanistan for which they and their 
families have sacrificed so much.
    The positive developments are not the whole story, of 
course. Real and daunting challenges lie ahead. Taliban terror 
attacks will continue and will be the focus of the media. The 
improving Afghan military has proven its willingness to fight, 
but is still in the early stages of building the support 
functions, such as logistics, maintenance, intelligence, and 
air power that are necessary for combat troops to do their jobs 
effectively.
    A bilateral security agreement (BSA) providing the 
protections for our troops is essential if even a modest number 
of our forces are to remain in Afghanistan. President Karzai 
has refused to sign a BSA that he negotiated, and that received 
the strong support of the loya jirga that he convened. 
President Obama has rightly decided to look beyond President 
Karzai to the next Afghan president following elections in 
early April. Each of the Afghan presidential candidates has 
indicated a willingness to sign the BSA, and any of them would 
likely be a more reliable partner than President Karzai.
    Much continues to be at stake for our national security, 
for the security of our friends and allies around the world, 
for regional stability, and, of course, for the Afghan people. 
A recent letter by Afghan Parliamentarian Fawzia Koofi 
highlighted the extraordinary changes of the past decade, 
particularly for Afghan women like herself. She points out that 
12 years ago Afghan women's participation in public life was 
prohibited and the prohibition was enforced through harassment 
and abuse. Ms. Koofi was nearly abandoned at birth, simply 
because in the Afghanistan of that time, a female child had no 
future.
    In the post-Taliban Afghanistan, she became a senior leader 
of the Afghan parliament. Ms. Koofi wrote: ``It has been a 
difficult journey, marked by blood and violence, but we have 
made significant gains and achievements, which would not have 
been possible without the generous support of the international 
community, especially the American people.''
    The Taliban have announced their intention to disrupt the 
April 5 election. They won't succeed. The Afghan people will 
stand up to their threats. They do it every day. Only if 
President Karzai and the Afghanistan Government permit or 
perpetrate fraud will the election fail to be credible.
    All in all, we mustn't lose sight of our accomplishments in 
Afghanistan or we will risk losing them. If we don't maintain a 
moderate level of support in the years ahead, we will also risk 
losing the gains that we have made at such high cost.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I was in Afghanistan in February and I observed the same 
thing that you did, so I won't list those things that the 
public just doesn't know about. There's one thing I would 
mention that was on my list that wasn't on yours, and that is 
in going through the Kabul Airport there was not one empty 
gate. That's usually an indication. You can see what's 
happening.
    There's a lot at stake right now. We can't repeat the 
mistakes of the administration in Iraq, where the abrupt 
drawdown resulted in a deteriorating security situation, an 
increase in violence, the resurgence of the al Qaeda-linked 
groups, and the growth of terrorists. We must ensure that 
decisions about the future of our mission in Afghanistan after 
2014 are based on sound strategy and the facts on the ground. 
To do that we must trust our military commanders on the ground 
who have told me two things just a month ago: One, the Afghan 
National Security Forces (ANSF) has made great progress and is 
now bearing the overwhelming majority of the brunt of fighting 
against the Taliban; and two, we need to continue to support 
the development of the ANSF, especially in the critical areas 
of developing enablers and fighting terrorists.
    In Afghanistan, President Karzai's refusal to sign the BSA 
despite support by the Afghan people has cast a doubt about the 
future of Afghanistan security and stability. But Karzai's 
irresponsibility in not signing the BSA doesn't really matter. 
The will of the people, including through the explicit 
endorsement by the elders, the tribesmen, and the loya jirga, 
make it clear that the next President will sign this. So we'll 
tough this one out until that takes place.
    I really appreciate, General, the personal time you've 
spent with all of us to give us the information on what's 
really going on there. I only wish, as I told you yesterday, 
that the public were aware of what we're aware of.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe.
    General Dunford.

  STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, COMMANDER, 
            INTERNATIONAL SECURITY ASSISTANCE FORCE

    General Dunford. Good morning, Chairman Levin, Ranking 
Member Inhofe, distinguished members of the committee. I 
appreciate the opportunity to testify this morning and to 
represent the men and women of U.S. Forces Afghanistan. Their 
courage, commitment, and performance are a direct reflection of 
your support. I'm confident that no force has ever deployed 
better trained or equipped.
    We are now in the final year of the combat mission in 
Afghanistan, a mission to deny safe haven to al Qaeda 
terrorists who attacked our Nation on September 11, 2001. We 
recognize that our vital national interests are best served by 
a stable, secure, and unified Afghanistan, an Afghanistan that 
is a capable and willing partner in the war against terrorism.
    We've accomplished much in pursuit of those ends. Since 
September 11, our forces have placed extraordinary pressure on 
al Qaeda and extremist networks in Afghanistan. Today, as a 
result of those efforts, al Qaeda terrorists are focused on 
survival rather than on planning attacks against the West. 
Since September 11, and with increased emphasis beginning in 
2009, we've focused on developing ANSF. Today, as a result of 
those efforts, capable and confident Afghan Forces are securing 
the Afghan people and the gains that we have made over the past 
decade.
    Since September 11, we've worked to improve the daily lives 
of the Afghan people. Today, as a result of those efforts, as 
the chairman and the ranking member outlined, Afghans have 
increased access to clean water, electricity, new roads, and 
education. But more important than any sign of progress in 
Afghanistan, the Afghan people have something today that they 
did not have in 2001. They have hope for the future.
    We've paid the price for those achievements. The chairman 
mentioned the over 2,200 Americans that have been lost and 
thousands more Afghans and members of the coalition have also 
made the ultimate sacrifice. We vow to give their sacrifice 
meaning and never to forget them or their families.
    Some people have questioned our progress and pointed out 
that the overall security situation in Afghanistan didn't 
really change between 2012 and 2013. That's true, and when put 
in perspective, it's also extraordinary, because security 
remained roughly the same with the Afghans assuming the lead 
and with over 50 percent of the coalition redeploying during 
that period of time.
    After watching the Afghan Forces respond to a variety of 
challenges since they took the lead in June, I don't believe 
the Taliban insurgency represents an existential threat to the 
Government of Afghanistan or to the ANSF. I'm also confident 
that they can secure the upcoming presidential election and the 
Nation's first democratic transfer of power.
    Yet, to make our progress enduring, work remains to build 
long-term sustainability of the Afghan Forces. Although the 
Afghans require less support in conducting security operations, 
they still need assistance in maturing the systems, the 
processes, and the institutions necessary to sustain a modern 
army and a police force. They also need continued support in 
addressing capability gaps in aviation, intelligence, and 
special operations. To address these gaps, a train, advise, and 
assist mission will be necessary after this year to further 
develop Afghan self-sustainability.
    A continued counterterrorism mission will also be needed to 
ensure that al Qaeda remains focused on survival and not on 
regeneration. Without continued counterterrorism pressure, an 
emboldened al Qaeda will not only begin to physically 
reconstitute, but they'll also exploit their perceived victory 
to boost recruitment, fundraising, and morale.
    In closing, it's fair to ask if we're winning in 
Afghanistan. I believe the answer is yes and several facts 
allow me to say that with confidence. First and foremost, our 
efforts in Afghanistan have pressured the terrorist network and 
have prevented another September 11.
    Second, we have built the ANSF that, with increasingly 
reduced levels of support, are capable of providing security 
and denying terrorists safe haven.
    Third, we're providing a stabilizing influence in the 
region that's providing the time and space for a wide range of 
complex issues to be addressed.
    Finally, as a result of our efforts, the Afghan people face 
a decade of opportunity within which they can determine their 
own future, free of the brutality and the intolerance of the 
Taliban. Despite all the skepticism surrounding our mission, 
that looks like winning to me.
    Thank you again for the opportunity to appear this morning. 
I look forward to your questions.
    [The prepared statement of General Dunford follows:]
        Prepared Statement by Gen. Joseph F. Dunford, Jr., USMC

                    Afghanistan: What We've Achieved

                 i. where we are--state of the campaign
    In the final year of the military campaign, U.S. Forces Afghanistan 
(USFOR-A) and our coalition partners have not forgotten the objective 
that brought us to Afghanistan more than 12 years ago: to prevent the 
country from once again becoming a safe haven for al Qaeda and 
international terrorism. Since 2001, our presence in Afghanistan and 
the extraordinary efforts of both conventional and special operations 
forces have prevented another September 11. Today, USFOR-A forces 
continue to place constant pressure on terrorist networks. 
Concurrently, troops from the 49-nation International Security 
Assistance Force (ISAF) continue to develop credible and capable Afghan 
National Security Forces (ANSF)--forces that can secure Afghanistan in 
the long term and prevent the re-emergence of safe havens from which al 
Qaeda can launch attacks against the United States and her allies.
    Last June, coalition forces achieved a major milestone in the 
military campaign when the ANSF took the lead for security operations 
nationwide. Progress was further made when the ANSF emerged from the 
2013 fighting season as a confident force capable of securing the 
Afghan people. With the ANSF in the lead, ISAF forces transitioned to a 
support role and began a train, advise, and assist mission initially 
focused on further maturing ANSF combat capability. Currently, ISAF 
advisors are re-orienting their focus away from developing combat 
skills to now developing the capabilities and institutions needed for 
the ANSF's long-term sustainability.
    The 9 remaining months of the ISAF campaign will have a decisive 
impact on Afghanistan's future. We will be focused on supporting the 
ANSF as they prepare for the fighting season, political transition, and 
security transition in December, when they will assume full 
responsibility for Afghanistan's security. ISAF will also continue to 
posture the force in preparation for NATO's post-2014 Resolute Support 
train, advise, and assist mission that will address gaps in 
capabilities that are necessary for the ANSF to become self-
sustainable.
                  ii. where we are--state of the ansf
    Today, Afghanistan is being secured by a confident ANSF with 
limited coalition support. The only unilateral operations ISAF is 
conducting are for our own force protection, sustainment, and 
redeployment. As a result of the ANSF's new lead role and the 
coalition's new support role, our Afghan partners are bearing the brunt 
of enemy attacks, although their cohesion remains strong. American and 
coalition casualties have significantly dropped, with casualties in 
2013 being nearly a quarter of what they were in 2010.
    The transition to Afghan Forces leading security operations in the 
summer of 2013 was a marked change in the campaign, which had coalition 
forces leading combat operations for the previous 12 years. Despite 
ISAF's early recognition that Afghanistan's security would depend on 
indigenous forces and coalition efforts beginning in 2002 to build an 
Afghan Security Force, progress was slow. In 2009, enabled by the U.S. 
troops surge ordered by President Obama, the coalition made a conscious 
effort to first grow ANSF numbers (quantity) and get them into the 
fight. This was then followed by an effort--which continues today--to 
develop ANSF enablers and professionalize the ranks (quality). As a 
result of this plan, the ANSF have grown to a force of nearly 350,000 
soldiers, airmen, and police today. These forces are augmented by an 
additional 26,000 local police forces.
    In 2010, coalition and Afghan Forces began conducting partnered 
operations, which developed combat capabilities and leadership skills 
from the tactical level on up. As a result of the ANSF's progress, 
President Obama and President Karzai agreed in January 2013 that Afghan 
Forces would take the lead for security nationwide at the Milestone 
2013 ceremony on June 18, 2013. As the Afghan Forces stepped into the 
lead role for counterinsurgency operations, ISAF forces stepped back 
into a support role. This new role had coalition members serving as 
combat advisors to Afghan units to further develop tactical fighting 
skills and the integration of combined arms, such as artillery, 
mortars, and attack helicopters.
2013 Fighting Season
    In their first fighting season in the lead, the ANSF proved capable 
of securing the Afghan people, fighting their own battles, and holding 
the gains achieved by ISAF over the last decade. Like the coalition 
forces who led operations the year prior, the ANSF successfully 
maintained control of all key terrain and populated areas. Today, the 
Government of the Islamic Republic of Afghanistan (GIRoA) remains in 
control of its 34 provincial capitals and all of its major cities. The 
majority of violence continues to take place away from populated areas, 
and polling shows the vast majority of Afghans hold a favorable view of 
their soldiers and police.
    The ANSF consistently demonstrated tactical overmatch against the 
Taliban-led insurgency, and proved resilient in a tough fight. They 
independently planned, led and executed combined-arms operations. They 
improved cooperation across the Ministry of Interior (police), the 
Ministry of Defense (Army), and the National Directorate of Security 
(intelligence service). They generated an impressive operational tempo 
as they secured the Afghan people.
    The ANSF's improving capabilities were demonstrated in large and 
complex combat operations across the country. In July, the ANSF 
launched Operation Semorgh in eastern Afghanistan. It was the largest 
Afghan air assault in history, followed by a two-pronged attack into 
the Azrah Valley. The 3-week operation--which involved the Afghan air 
force, the 201st and 203rd Army Corps, the 111th Capital Division, 
special operations, and police--began with Mi-35 attack helicopters 
escorting Mi-17s helicopters as they inserted 250 Afghan soldiers and 
13,000 pounds of supplies. Afghan helicopters provided fire support and 
casualty evacuation while Afghan artillery and mortars provided surface 
fires in support of the ground force's movement through difficult, 
mountainous terrain. Despite insurgent attacks, bad weather, and the 
soldiers' fasting for Ramazan, the ANSF successfully cleared the valley 
of insurgents and secured the district center, facilitating the 
delivery of humanitarian aid and voter registration materials. Once the 
operation was complete, Afghan police remained in the valley to provide 
for its long-term security. The ANSF independently planned, executed, 
and sustained the operation; ISAF only provided enabler support, such 
as close air support, casualty evacuation, and intelligence, 
surveillance, and reconnaissance.
    Throughout the rest of the summer and winter, each of the six 
Afghan Army corps planned and executed multiple complex operations 
throughout the country with the support of the Afghan air force, 
special operations, and police. Highlights include the 205th Corps' 
Operation Chamtoo in southern Afghanistan, where they cleared almost 
300 villages in 14 days with minimal casualties; in the process, they 
discovered and confiscated 1.5 tons of homemade explosives and more 
than 1,000 IEDs and components. The 207th Corps's Operation Abu Nasr 
Farahi in western Afghanistan cleared insurgents along Highway 1, 
protecting the Afghan people and securing a vital road for commercial 
and military needs. The 209th Corps' Operation Hindukush in northern 
Afghanistan cleared insurgent safe havens in the Warduj Valley. The 
215th Corps' Operation Oqab in southwestern Afghanistan took the fight 
to insurgents in Sangin, demonstrating strong combined arms 
capabilities during clearing operations to deny insurgents safe haven.
    The ANSF's growing capability was particularly evident during the 
Loya Jirga in November, when 3,000 Afghan leaders from around the 
country met in Kabul to discuss the U.S.-Afghanistan Bilateral Security 
Agreement (BSA). Despite concerted efforts from the Haqqani Network and 
other insurgents to disrupt the Loya Jirga, the ANSF successfully 
secured the event without incident. This accomplishment was the result 
of extensive planning and integrated operations in Kabul, other major 
urban centers, and the key routes connecting them by the Ministry of 
Interior, the Ministry of Defense, and the National Directorate of 
Security for weeks leading up to the event. This performance reflects a 
degree of coordination between the three different security pillars 
that simply didn't exist in early 2013.
    Despite the ANSF's successes throughout the fighting season, they 
also faced several challenges. Due to existing capability gaps and 
shortfalls, the ANSF relied on ISAF for enabler support, particularly 
in the areas of close air support, casualty evacuation, logistics, 
counter-IED, and intelligence, surveillance, and reconnaissance. The 
ANSF also suffered high casualties and instances of poor leadership, 
but impressively remained a cohesive and resilient fighting force.
    On balance, after watching the ANSF respond to a variety of 
challenges over the past year, I do not believe the Taliban-led 
insurgency represents an existential threat to GIRoA or the ANSF. 
However, while the ANSF's performance shows they require less ISAF 
assistance in conducting security operations, they do need a great deal 
of help in developing the systems, the processes, and the institutions 
necessary to run a modern, professional army and police force.
ANSF Capability Gaps
    ISAF forces are in the process of re-orienting from combat advising 
at the unit level to functionally-based advising at the Afghan security 
ministries, the six army corps, and the police zones. In this new role, 
advisors are focusing on tasks that will build the ANSF's long-term 
sustainability to make the progress that has been made to date 
enduring.
    At the security ministries, advisors are focusing on building 
ministerial capacity in planning, programming, budgeting, and 
acquisition. Advisors are also working to improve integration between 
the different security pillars--army, police, and intelligence 
service--at all levels. In the fielded force, advisors will focus on 
capability gaps like the aviation, intelligence, and special 
operations. They will also focus on developmental shortfalls in areas 
like logistics, medical, and counter-IED. At all levels, our advisors 
will work to improve Afghan transparency and accountability of donor 
resources, and reduce casualties and overall attrition. In total, our 
shift to functionally-based advising is putting the ANSF on a path to 
sustainment.
    Despite our advisory efforts in 2014, four capability gaps will 
remain after the ISAF mission ends. I assess that without the Resolute 
Support mission, the progress made to date will not be sustainable. A 
limited number of advisors will be required in 2015 to continue the 
train, advise, and assist mission. These advisors will address gaps in: 
(1) the aviation enterprise; (2) the intelligence enterprise; (3) 
special operations; and (4) the security ministries' capacity to 
conduct tasks such as planning, programming, budgeting, acquisition, 
and human resource management so they can provide tactical units the 
support they require to function. These advisors will put the Afghans 
on the path to sustainment that the Afghans can further develop after 
Resolute Support concludes.
    In summary, although clear challenges exist along the security line 
of effort, I believe the physical capabilities and capacities of the 
ANSF will be sufficient to secure the election, to achieve transition 
in December, and--with a post-2014 advising mission--to provide for 
Afghanistan's long-term security. These collective efforts are 
hardening the Afghan state and giving it needed time to develop and 
mature. These efforts are also reducing the insurgency's operating 
space and incentivizing its participation in the peace process.
                 iii. where we are--state of the threat
    ISAF and Afghan Forces remain focused on denying safe haven to al 
Qaeda and keeping pressure on the extremist network to limit the 
operational ability of al Qaeda, the Haqqani Network, and other 
transnational and foreign military groups inside Afghanistan.
    Sustained counterterrorism operations have prevented al Qaeda's use 
of the country as a platform for terrorism. Operations have restricted 
their permanent presence to isolated areas of northeastern Afghanistan 
and have resulted in only a seasonal presence in other parts of the 
country. These efforts have forced al Qaeda to focus on survival rather 
than on operations against the west. Counterterrorism pressure placed 
on al Qaeda--as well as the elimination of fighters and facilitators--
has prevented another attack on the homeland. Yet, continued operations 
are necessary to prevent al Qaeda from regenerating degraded 
capabilities.
    Challenges remain despite this success, as the extremist network 
within Afghanistan has become more complex over the last decade. Where 
at one time al Qaeda could be isolated--as we intended to do in 2001--
extremist networks have now expanded in the country. Increased 
cooperation and coordination can be seen between al Qaeda and other 
extremists like the Haqqani Network, Tahrik-e Taliban Pakistan, and 
Lashkar-e-Taiba.
    The Haqqani Network remains the most virulent strain of the 
insurgency, the greatest risk to coalition forces, and a critical 
enabler of al Qaeda. The Haqqani Taliban also shares the Afghan 
Taliban's goals of expelling coalition forces, removing the Afghan 
Government, and re-establishing an Islamic Emirate of Afghanistan. They 
lead the insurgency in three eastern Afghan provinces (Paktika, 
Paktiya, Khost) and have demonstrated the capability and intent to 
launch and support high profile and complex attacks against the 
coalition across the country. In response to several dangerous threat 
streams against coalition and Afghan personnel, ANSF and U.S. Special 
Operations Forces have expanded their security and counterterrorism 
operations. These operations have successfully disrupted several 
dangerous threats streams that sought to inflict significant casualties 
on the force and break the coalition's will.
    The Afghan Taliban also remain a potent and resilient threat. At 
the beginning of the 2013 fighting season, they outlined their 
operational objectives: seize and hold district centers, increase 
violence across the country, conduct insider and high profile attacks 
to garner media coverage, and crush the will of the ANSF in their first 
fighting season in the lead.
    Despite their continued efforts, the Taliban made very limited 
progress in achieving these objectives and in exploiting ISAF's reduced 
troop presence to generate operational or strategic momentum. The 
Taliban were not able to hold terrain, crush the ANSF's spirit, or 
increase insider attacks and violence levels from 2012 when coalition 
forces led security operations. However, the Taliban were able to 
project violence into urban areas from rural safe havens, threaten 
freedom of movement along major highways, and contest government 
control in some areas. They were also able to conduct high profile 
attacks that negatively influenced Afghan and international community 
perceptions about security, and capitalize on the existing uncertainty 
surrounding the coalition's post-2014 mission. Despite these successes, 
recent polling data shows the Afghan population continues to widely 
reject the Taliban, challenging their ability to expand influence.
    As we look to the remaining months of the ISAF campaign, we can 
expect the Taliban, the Haqqani Network, and other extremists to 
attempt a higher operational tempo than in previous years to disrupt 
the political process and prevent the signing of the BSA. They will 
seek to increase propaganda, assassinations, and high profile attacks 
to create a perception of insecurity and weaken coalition cohesion. In 
response, ISAF will continue to support the ANSF as they continue a 
high rate of security operations to mitigate these threats.
    While insurgent and terrorist threats have proved resilient, ISAF 
and ANSF operations have kept these groups at bay. Continued pressure 
will be required to prevent al Qaeda from regenerating degraded 
operations with the support of groups like the Haqqani Network. 
Continued pressure will also be required to address the broader 
extremist network in Afghanistan, which threatens the stability of the 
Nation as well as the broader region. The long-term solution to this 
challenge remains a capable and sustainable security establishment and 
responsive institutions of civil governance that together can secure 
the Nation and prevent the re-emergence of al Qaeda safe havens. 
Continued international support in both of these areas will be 
essential to GIRoA's long-term capacity to govern and serve as a 
security partner in the region.
                    iv. challenges and opportunities
Strategic Partnership with GIRoA
    Despite political challenges, the fundamental partnership between 
ISAF and the ANSF remains strong. Coalition and Afghan leaders retain a 
positive day-to-day relationship and continue to work together in 
pursuit of shared strategic objectives. Afghan Government, civil, and 
military leaders demonstrate a growing appreciation for the coalition's 
efforts; these leaders are genuine in their gratitude for our shared 
sacrifice over the last decade. I have also seen our Afghan partners 
develop a growing sense of ownership and pride in their army and police 
force. Over the last year, Afghans have begun to realize that they have 
credible security forces that can protect them. However, the Afghan 
people still desire continued and broader international support, as 
evidenced by the Loya Jirga's endorsement of the BSA and widespread 
popular sentiment among Afghans for a signed BSA.
Narrative
    Uncertainty continues to exist throughout Afghan society and within 
the ANSF about the United States' and the international community's 
commitment to Afghanistan post-2014. Absent confidence and hope for a 
brighter future, many Afghans are planning for the worst. Numerous 
reports cite the depreciation of Afghan currency, plunging real estate 
prices, capital flight, and young, well-educated Afghans trying to 
emigrate. This uncertainty, and a subsequent fear of abandonment, spurs 
hedging behavior by Afghan power brokers. Uncertainty also spurs 
hedging by regional actors. These behaviors have a corrosive effect on 
Afghan confidence and the broader campaign, and they distract attention 
from issues important to Afghanistan's future, such as good governance 
and economic development.
    The Taliban continue to capitalize on these challenges and leverage 
the information environment to advance a narrative of coalition 
abandonment. In fact, the Taliban's failure to achieve their 
operational intent in 2013 was partially offset by their effectiveness 
in negatively influencing public perceptions about security and the 
future. In addition to undermining Afghan confidence and advancing a 
narrative that they are chasing coalition forces out of Afghanistan, 
the Taliban ranks continue to gain strength from their belief that all 
coalition forces will depart Afghanistan at the end of the year.
    I believe a signed BSA and NATO Status of Forces Agreement (SOFA) 
will address the Afghan people's concerns and damage the Taliban's 
confidence. These documents--combined with clarity on the post-2014 
mission and associated financial commitments from the Chicago Summit 
and Tokyo Conference--will significantly enhance Afghan confidence and 
erode our enemy's will. While the information environment is a 
challenge today, I believe it can be turned around.
    In the meantime, we are working to mitigate the risk that 
uncertainty poses to the relationship between the ANSF and the 
coalition. We are communicating our commitment through both actions and 
words, and are expressing our confidence in the ANSF's ability to 
secure the election and the Afghan people post-2014. We are also 
working to ensure they know how proud we are of our relationship--a 
relationship built on trust and a common vision for a stable, secure, 
and unified Afghanistan.
Insider Threat
    Although insider attacks against ISAF forces in 2013 declined 
sharply from 2012, they remain a focus area for our force protection. 
Thus far, these attacks have not significantly affected the strong 
relationship between coalition and ANSF personnel, particularly in the 
field where they face a common enemy every day. ISAF is cautiously 
optimistic that the mitigation measures applied over the previous year 
are working. These measures have reduced, but not eliminated, the 
threat. We remain vigilant to prevent future insider attacks.
Attrition
    A high attrition rate, particularly in the Afghan National Army, 
continues to pose challenges to force development. The main causes of 
attrition are assessed as high operational tempo, sustained risk, 
soldier care/quality of life, and leave issues. Afghan casualties have 
also increased since the ANSF took the lead for security last June.
    While combat losses comprise a relatively small percentage of ANSF 
attrition numbers, reducing ANSF casualties remains both a top moral 
and operational priority for ISAF and ANSF leaders. Several factors in 
addition to enemy action contributed to casualties in the 2013 fighting 
season, such as shortfalls in medical care and casualty evacuation. We 
are aggressively addressing these shortfalls in several ways: the 
introduction of combat lifesaver skills and medical kits so soldiers 
can give self aid and buddy aid at the point of injury, the use of Mi-
17 helicopters for casualty evacuation, and improved Afghan medical 
capabilities and long-term care. Reducing casualties also depends on 
the ANSF's warfighting capability, which ranges from a commander's 
competency to a unit's ability to integrate combined arms. ANSF leaders 
are working hard to improve these areas.
    Although the overall attrition rate is high, it has not impacted 
combat readiness, as the ANSF remains sustainable in numerical terms 
due to robust recruitment. However, if the current attrition rate 
persists, it could have an adverse effect on the long-term quality of 
the ANSF. Urgent action is therefore being taken to address the root 
causes of attrition beyond combat casualties, and to develop a culture 
of accountable leadership in the ANSF. In particular, ANSF senior 
leadership has established a Joint Attrition Working Group and an 
Absent Without Leave Prevention Committee to identify and mitigate its 
causes.
Af-Pak Military to Military Relationship
    Security within Afghanistan and Pakistan remains interdependent, 
and requires a cooperative effort between the two nations. Cooperation 
is necessary to address the common threat of extremism, mitigate the 
risk of violence on the Afghan-Pakistani border, and give Afghans and 
their neighbors confidence in the future. Another challenge involves 
enemy sanctuary in Pakistan, which is a major factor preventing ISAF's 
decisive defeat of the Afghan insurgency in the near term. To advance 
stability, ISAF continues to play a facilitator role in pursuit of a 
constructive and effective relationship between the Afghan and 
Pakistani militaries.
    In the past year, positive political developments have provided 
space for the Afghanistan-Pakistan military relationship to grow. These 
developments include visits between President Karzai and Pakistani 
Prime Minister Nawaz Sharif, their participation in tripartite meetings 
in London and Ankara, and Pakistan's support to an Afghan-led 
reconciliation process. As a result, ISAF was able to facilitate 
trilateral engagements at the senior military level that augmented a 
growing bilateral relationship at lower levels. However, progress 
remains fragile. Minor issues--as demonstrated by a border incident in 
December--can quickly stall gains in the bilateral relationship. 
However, the absence of publicity and unhelpful rhetoric during the 
December incident reflects a change to the status quo and signals the 
potential for continued progress.
Stewardship of Resources
    Stewardship of taxpayer dollars is a priority for USFOR-A, and is 
critical to keeping the trust and confidence of the American people. 
Yet, war is an inherently inefficient and challenging endeavor, and 
despite the dedicated efforts of many, cases exist over the years where 
American resources were not spent as efficiently as possible. USFOR-A 
takes seriously our obligation to protect taxpayer dollars, and is 
working hard to ensure both wise spending and the identification of 
areas for cost savings or avoidance.
    In 2013, USFOR-A developed a 5-step process to increase checks and 
balances and improve the planning, execution, and oversight of 
resources. This process mandates a continuous and rigorous review of 
all requirements (e.g., Afghan Security Force Funds, Military 
Construction, Afghanistan Infrastructure Fund, Commander's Emergency 
Response Program) based on changes in the mission and operating 
environment. Requirements are scrutinized and subsequently validated, 
de-obligated, or rescoped based on input from relevant stakeholders. In 
fiscal years 2013 and 2014 (to date), these efforts have resulted in 
cost savings and avoidance of more than $5 billion. USFOR-A has also 
welcomed and incorporated into our processes independent agencies' 
recommendations for improvement, which have proven most helpful when 
released in time to effect change.
    USFOR-A will continue to scrutinize every dollar spent to ensure 
spending is necessary to mission success and results in the desired 
effect. This approach applies equally to post-2014 ANSF funding that 
was committed at the Chicago Summit.
                     v. milestones and major events
Presidential Election
    ISAF is decisively engaged in supporting the ANSF as they plan for 
the security of Afghanistan's presidential election on April 5th. The 
presidential election will serve as a defining moment in the campaign, 
as it will usher in the Nation's first democratic and peaceful transfer 
of power. ISAF understands that an election process that is inclusive, 
transparent and credible will be critical to the long-term partnership 
between Afghanistan, the United States, and the international 
community. Successful political transition will also be critical to 
meet a precondition for continued donor resources, as outlined in the 
Tokyo Mutual Accountability Framework.
    To ensure a secure environment that will both encourage and 
facilitate voter participation, ISAF is supporting the Ministry of 
Interior, which has lead responsibility for election security, and the 
Ministry of Defense and the National Directorate of Security, which are 
in support. ISAF assistance involves planning, logistical and 
operational support requested by, and in coordination with, GIRoA and 
the Independent Electoral Commission (IEC). ISAF is also prepared to 
provide in extremis security support if needed. Throughout the election 
process, ISAF will remain a neutral player.
    To reduce the risk of an election delay, ISAF is currently 
supporting the movement of election materials throughout the country. 
While the IEC and ANSF are transporting election materials to 98 
percent of election locations (e.g., regional hubs, provincial centers, 
district centers, and polling centers), the Afghan Government has 
requested limited assistance from ISAF due to security conditions, 
weather conditions, and the volume of election materials that need to 
be moved. ISAF assistance includes providing enablers--such as 
intelligence and air support--to the Afghan Forces as they transport 
materials to 19 locations. ISAF is also directly moving materials to 4 
regional distribution hubs, 5 provincial centers, and 17 districts. 
During air and ground movements by ANSF and ISAF forces, election 
materials have been and will remain under IEC control and custody.
    My confidence in the ANSF's ability to secure the election is based 
on several factors. First, the ANSF have already facilitated a 
successful, nationwide voter registration process. Their performance 
during the fighting season and the Loya Jirga also serves as a positive 
indicator for the election. Second, there will be more forces providing 
security than during the 2009 election. Then, there were approximately 
250,000 coalition and Afghan Forces securing the election. In April, 
there will be approximately 425,000 troops, of which 375,000 will be 
Afghan. Third, ANSF planning efforts are well ahead of where they were 
in 2009 and include several rehearsal exercises to prepare for the 
historic event.
Posturing the Force
    As ISAF looks to December, two campaign imperatives guide our 
actions. First, we are taking steps to reduce risk and ensure a smooth 
transition to the Resolute Support mission. We are also focused on 
maintaining simultaneity in the campaign by building ANSF 
sustainability while providing support to the ANSF as they prepare for 
the election and the fighting season.
    To focus our efforts, ISAF has divided 2014 into three phases with 
specific outcomes. On March 1, we completed our first phase. This phase 
saw us continuing to transition from combat advising to functionally-
based advising, and working with the ANSF to disrupt high profile 
threats. Concurrently, we executed 50 tasks to increase Afghan 
readiness, such as improving vehicle maintenance and stocking 
ammunition supplies. These tasks will help the ANSF operate throughout 
the election and fighting season without taking an operational pause or 
reaching a point where their operations are disrupted or halted due to 
lack of logistical support.
    In the second phase of 2014, from now to July, we'll complete the 
transition to functionally-based advising. This will facilitate the 
arrival of ISAF's final troop rotation in July and will begin what we 
conceptually view as Phase 0 of Resolute Support. In the third and 
final phase, from August to December, we'll finish posturing the force 
to ensure a smooth transition to the post-2014 mission.
    ISAF's retrograde and redeployment efforts remain on track or ahead 
of schedule. U.S. troops in theater number fewer than 34,000--well 
below the 100,000 U.S. troops at the height of the surge. By December 
31, U.S. Forces will be at the post-2014 number decided by President 
Obama. As forces have redeployed, ISAF has closed, descoped, or 
transferred tactical infrastructure--ranging from large bases to small 
combat outposts--to the Afghans. Coalition bases and outposts now 
number less than 90, from a height of more than 850 in 2012. In 
December, we'll be at our Resolute Support number. In terms of materiel 
reduction, fewer than 10,000 U.S. vehicles not needed for the post-2014 
mission will be returned to the military services. This is down from a 
high of more than 40,000 vehicles in June 2012. To provide context, 
during the summer--and in the middle of the fighting season--we moved 
6,000 vehicles.
Post-2014 Mission
    In anticipation of a signed BSA and NATO SOFA, ISAF continues to 
plan for the Resolute Support train, advise, assist mission. This 
mission will focus on the four capability gaps at the operational/
institutional and strategic levels of the ANSF that will remain at the 
end of the ISAF mission: (1) Afghan security institution capacity; (2) 
the aviation enterprise; (3) the intelligence enterprise; and (4) 
special operations. In accordance with NATO guidance, ISAF is planning 
on a limited regional approach with 8,000-12,000 coalition personnel 
employed in Kabul and the four corners of Afghanistan. Advisors will 
address capability gaps at the Afghan security ministries, army corps, 
and police zones, before eventually transitioning to a Kabul-centric 
approach focused on the Afghan ministries and institutions. Due to 
delays in the completion of the BSA, and at the recent direction of 
NATO, we will begin planning for various contingencies in Afghanistan 
while still continuing to plan for Resolute Support.
                      vi. what winning looks like
    Despite the remaining challenges in the campaign, we remain focused 
on winning in Afghanistan--as defined below. Its key components 
include:

        <bullet> The transition of security responsibility to a 
        confident, self-reliant and sustainable ANSF capable of 
        protecting the population and securing a legitimate Afghan 
        Government;
        <bullet> An operationally ineffective al Qaeda deprived of safe 
        haven from which to plan and conduct operations outside the 
        area;
        <bullet> An acceptable political transition following an 
        election viewed as inclusive, transparent, and credible by the 
        Afghan people and the international community; and Afghan 
        Government adherence to the Mutual Accountability Framework; 
        and
        <bullet> A constructive Afghanistan-Pakistan military to 
        military relationship.

    On December 31, we will reach the end of the ISAF combat mission. 
Until then, USFOR-A and ISAF will be focused on maximizing the time 
left to advance the campaign. While work remains after 2014--such as 
building ANSF sustainability- the components of winning can largely be 
achieved by the end of the year. I am confident in our ability to 
effect full security transition in December. I am certain that 
counterterrorism operations by American and Afghan Forces will continue 
to deprive al Qaeda of safe haven. I am optimistic that political 
transition will successfully take place. I believe we are on track to 
develop a constructive military to military relationship between the 
Afghanistan and Pakistan militaries that can be a foundational element 
in a broader partnership between the two countries. In the remaining 
months of the campaign, American and coalition personnel will work to 
achieve these goals.
    When the men and women of USFOR-A and ISAF depart Afghanistan this 
December, they will depart knowing their hard work and sacrifice--and 
that of those who came before them--have not only built a capable 
Afghan Security Force, have not only given the Afghan people the 
opportunity to determine a future of their own, but have also enhanced 
our collective security and kept the American people safe. That is what 
winning will look like.

    Chairman Levin. Thank you very much for your testimony and 
again for your service, and for all those with whom you work.
    We have, I think, six votes scheduled at 10:30 a.m. We have 
asked if they can be delayed. Another committee is in the same 
situation. We don't know that that will be the case. So what 
we'll do is we'll have a 6-minute first round to get as many of 
us in as possible before the vote. But there will still be many 
of us who will have to work around these votes, as we did, I 
believe, yesterday or the day before yesterday, and we did it 
very successfully. So we'll all do the best we can. Let's start 
with 6 minutes.
    General, what is the latest date that we can wait in order 
to find out if there's going to be a BSA, in other words, the 
date that we must actually begin to implement a total 
withdrawal if there's not going to be a BSA?
    General Dunford. Mr. Chairman, I'll address that first from 
just the military perspective. Whether there would be a 
withdrawal at the end of 2014 or whether we would maintain a 
mission across Afghanistan in a regional approach at the end of 
2014, I wouldn't do anything different between now and July. 
We've stabilized the force to support the elections in April 
and we have plenty of flexibility to be able to adjust to 
either eventuality in July.
    Beginning in July, we have manageable risks during the 
months of July and August, and then I would assess the risk of 
an orderly withdrawal begins to be high in September, and 
that's simply a function of the tasks that have to be 
accomplished and how many days it needs to accomplish those 
tasks.
    But I would quickly add that what concerns me most about 
the delay in the BSA is not the physics of the retrograde or 
the redeployment of forces. It's the uncertainty that exists 
inside of Afghanistan with the Afghan people, the uncertainty 
with the Afghan Forces, the hedging behavior that we see in the 
region, and as importantly, and I think something we need to be 
very attentive to in the coming months, the coalition cohesion 
and ensuring that at the end of these several months of 
uncertainty we still have a coalition going into 2015.
    Chairman Levin. Thank you.
    General Dunford, I understand you've presented a range of 
options to the White House for the size of a post-2014 military 
presence of our forces as part of a coalition to train, advise, 
and assist the Afghans. Can you tell us what range of U.S. 
troops you would be comfortable with for a post-2014 military 
presence?
    General Dunford. Mr. Chairman, for over a year we've used 
the guidance that we received at the defense ministerial in the 
North Atlantic Treaty Organization (NATO) in February 2013 as 
our primary planning guidance. That guidance called for a force 
of 8,000 to 12,000 NATO forces to provide train, advise, and 
assist at the Afghan corps level. I'm comfortable with that 
range and our ability to accomplish the train and advise 
mission with that allocation of forces. Then over and above 
that, we have always assumed on the U.S. side that there would 
be additional thousands of forces to conduct counterterrorism 
operations.
    Chairman Levin. You're talking about an additional few 
thousand, is that correct?
    General Dunford. That's correct, Mr. Chairman.
    Chairman Levin. Of the 8,000 to 12,000 NATO range, two-
thirds of them would be U.S. Forces?
    General Dunford. As a general rule, Mr. Chairman, we have 
provided two-thirds of the NATO force.
    Chairman Levin. You've already characterized the 
performance of the ANSF in 2013. Can you give us your overall 
assessment? You said that they were able to maintain the 
security that had been present in the previous summer when we 
were mainly in control and they did that, although they were 
now in control in 2013. Would you say that that control was 
successful? How would you give a general military 
characterization?
    General Dunford. Mr. Chairman, I'd start with the summer 
itself. The Taliban came out in the spring and articulated 
their objectives for the spring, and we can say at the end of 
the summer that the Taliban were unsuccessful in accomplishing 
their objectives as a result of the performance of the ANSF.
    But there's been a couple of recent events that really 
highlight the ability of the Afghan Forces and the progress 
that they have made over the last few years. The loya jirga 
that was conducted in November is a good example, where 
thousands of people met in Kabul from around the country. The 
city was locked down. The event was conducted without a single 
security incident, and we know that the Taliban and the Haqqani 
network, in particular, had every intent of disrupting that 
particular event.
    Just last week, there was an event in Ghasni Province with 
over 6,000 people celebrating the Islamic festival. People from 
throughout the region came. The Afghan Forces coordinated their 
efforts. The Ministry of Interior and the Ministry of Defense 
conducted that event without a security incident as well. We 
also know from the intelligence that the enemy had every intent 
of disrupting that event.
    What we have seen increasingly is Afghan Forces that are 
capable of assuming the lead. We no longer conduct any 
unilateral operations except for our own security, our own 
sustainment, and retrograde. All other operations in 
Afghanistan are conducted by ANSF.
    But I would say that the most significant thing that I've 
seen since I've been there is the sense of responsibility and 
accountability of Afghan leaders, and also the pride and the 
confidence that the people of Afghan have in their ANSF, and I 
think that's been one of the biggest second order effects as a 
result of the transition that took place last June.
    Chairman Levin. Thank you.
    A recent independent study by the Center for Naval Analyses 
concluded the following about the size of the ANSF that would 
be needed, and their assessment is that, based on the likely 
security conditions after 2014 in Afghanistan, the security 
forces should be maintained near their current size of around 
374,000--that includes army, national police, and the Afghan 
local police--at least through 2018. Do you agree with that 
assessment?
    General Dunford. Mr. Chairman, I do, and that Center for 
Naval Analyses study is consistent with some work that we've 
done over the last 2 or 3 years with the Center of Army 
Analyses and also our own internal assessments.
    Chairman Levin. I do, too, and I think it is really 
important that we provide that support. It's different from 
what was decided on at NATO a year or 2 ago. It's higher. But 
your testimony on that, I think, will help us to maintain a 
force of that size.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Dunford, yesterday in my office you talked about 
the difference between transition and withdrawal. Would you 
like to share that with us?
    General Dunford. Senator Inhofe, we're in the process now 
of transitioning to ANSF assuming full responsibility for 
security at the end of 2014. In my mind that gives us the best 
prospects for success and allows us to achieve the ends that we 
outlined some years ago and which are articulated in my opening 
statement.
    A transition to me means finishing the job of allowing the 
Afghan Forces to assume responsibility and supporting the 
political transition that will begin in earnest with the 
elections this April and obviously continue to the 
parliamentary elections in 2015. A withdrawal in my mind means 
abandoning the people of Afghanistan, abandoning the endeavor 
that we've been on for the last decade, and then providing al 
Qaeda the space within which to begin again to plan and conduct 
operations against the West.
    Senator Inhofe. Would it be very similar then as the Iraq 
situation?
    General Dunford. I think that's fair to say, Senator.
    Senator Inhofe. One of the difficult things that's so 
intangible is when we talk about what would have happened if we 
hadn't done what we've done. I'm thinking a lot of the times 
the National Security Agency information will be directly 
linked to something that was planned in this country, like the 
New York City subway stuff and the jet storage field. We can 
identify that. You and I talked about this. Just from a 
military perspective, from your observation, would you say that 
our actions could have prevented another September 11 type of 
attack on this country?
    General Dunford. Senator, I don't think there's any doubt 
that al Qaeda has an intent to once again attack the West and 
to use the Afghan-Pakistan region from which to make that 
attack. I also don't think there's any doubt that the pressure 
that we have had on the network over the past 10 years in 
particular has prevented them from doing that.
    Senator Inhofe. I believe that, but a lot of the people 
don't. I think it's important that we, and that you in the 
military, talk about observations, what could have happened and 
what are we doing that is perhaps not as noticeable today as it 
should be.
    I can remember in the beginning with the Afghans, because 
it happens that one of our Guard units, the 45th, was over 
there helping in the training, so I've watched them as time has 
gone by. The statement that has been made that the ANSF is very 
effective, but is not fully developed, what does that mean, 
``not fully developed''?
    General Dunford. Senator, today the Afghan Forces are doing 
the fighting. They're providing security to the Afghan people. 
What they don't have are the systems, the processes, and 
institutions that allow them to be self-sustaining. At the 
ministerial level that includes things like planning, 
programming, budgeting, and acquisition. It's simple things 
like getting parts distributed, pay systems, fuel, overseeing 
contracts. We call that the functions that allow them to be 
self-sustaining.
    So we're providing a degree of advice and assistance today 
that's different than what we were doing in the past. When the 
Afghans were not in the lead, we were partnering with them or 
we were providing combat advising. Now we're helping them 
develop those systems and processes that allow them to be self-
sustaining when we reduce to a much smaller presence.
    Senator Inhofe. We're doing that without putting our people 
in harm's way, as it was in the past when we were having to 
take the lead.
    General Dunford. In a far different way, Senator. Clearly 
we're still in a combat zone and our people are in harm's way, 
but the risk is increasingly being assumed by ANSF.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General, for your service and the service of the 
forces that you command.
    A great deal hangs on this election that is forthcoming. 
Can you give us an indication of the ability of the ANSF to 
protect the election process in April, and also whether there 
will likely be a runoff? When will the election process 
conclude?
    General Dunford. Senator, thanks for that question. Months 
ago the ANSF began to plan security for the elections and 
they're probably 5 or 6 months ahead of where they were in 
2009. I think one of the best indicators for what we'll see for 
security at the elections took place last summer when the 
Afghans were in the lead, during the registration process. I 
mentioned the security they provided to the loya jirga. I also 
mentioned the security they provided to the Islamic festival. 
Those are all indicators of the capability of the Afghans to 
actually provide security.
    One interesting statistic is that during the elections of 
2009 there were about 250,000 people in uniform. That's a 
combination of coalition forces and Afghan Forces that were 
providing security during that period of time. On the 5th of 
April of this year, there will be 425,000 forces providing 
security for the elections, 375,000 of which will be Afghan. So 
I think that's a very strong indicator, not only their 
performance over the past several months, but also just their 
inherent capabilities that will be on display on the 5th of 
April of this year.
    If there's a runoff, our best assessment is that we would 
have a new president in August 2014.
    Senator Reed. So that falls within that period of time when 
you're still capable of making a transition or going from 
several options. Operationally, you still have that 
flexibility?
    General Dunford. We do, Senator.
    Senator Reed. You've indicated several times in testimony 
about the positive public opinion and support for the ANSF. Can 
you give us an indication of why, if that's the case? Also, 
will that translate to support of the Government of 
Afghanistan? There are situations where armies might have 
support or security forces, but it doesn't translate.
    General Dunford. Senator, we really began to see the change 
back in June when we celebrated what was known as Milestone 
2013. That's when the ANSF assumed the lead. I can remember in 
particular one conversation I had with former Defense Minister 
Wardak, a big burly man who had been a jihadi. You probably 
have met him. During that ceremony he leaned over to me almost 
with tears in his eyes and he said: ``General, you have no idea 
what it means to once again be responsible for the security of 
your own country, and I want to thank you and the American 
people for making this possible.''
    We have seen through the summer as the Afghan people saw 
their young men and women providing security, increasing pride. 
We set out last spring; we laid out our campaign objectives. We 
said we wanted to emerge from the summer with confident and 
capable Afghan Forces, but as importantly, credible in the eyes 
of the Afghan people. The polling data certainly indicates 
that, where consistently over 80 percent of the Afghan people 
have a positive assessment of the ANSF, the army in particular.
    Just recently, we had a pretty sad incident take place in 
the Kunar Province where 21 Afghan Forces were killed. That 
negative was turned into a positive in the wake of that event. 
The outpouring of pride and support for Afghan Forces, the 
desire to take care of the families of the fallen, the outrage 
that the Afghan people felt that their soldiers had been 
attacked by the Taliban, was actually a great indicator of the 
developing nationalism inside of Afghanistan, the pride that 
the Afghan people have in their country, but as importantly, 
the pride they have in the Afghan Forces.
    That clearly has had a positive effect on the Afghan Forces 
themselves, because if the people are proud of them and what 
they do and they appreciate and recognize what they do and the 
sacrifices they make, they're more encouraged to actually do 
that.
    So, Senator, as I mentioned a minute ago, there's a lot of 
things we can point to physically in terms of Afghan capability 
development. We can look at helicopters, we can look at Mobile 
Strike Force Vehicles (MSFV), we can look at weapons systems, 
we can look at their tactics, techniques, and procedures. All 
those things are positive. But the human factors are as 
important, and what I have seen again in the leadership is a 
sense of pride, sense of responsibility, sense of 
accountability. But amongst the Afghan people what I've seen is 
a sense of ownership of Afghan Forces.
    You ask, does that translate into support for the Afghan 
Government? Interesting enough, about 80 percent of the Afghan 
people have confidence that the Afghan Government is heading in 
the right direction, and 52 percent of them actually believe 
that things over the last year have improved. That's high when 
you look at, I think, a comparable statistic, in the United 
States right now is about 37 percent. So there's actually a 
greater degree of confidence that they're moving in the right 
direction inside of Afghanistan right now, and we're encouraged 
by that.
    Senator Reed. General, my time is all but expired, but for 
the record if you could indicate to us your estimate of how 
long the residual force will stay, if there is a BSA concluded 
to the satisfaction of both sides? Unless you can give a very 
brief answer, you can take that for the record.
    General Dunford. Senator, it's a little more complicated, 
so I'd like to take that for the record.
    Senator Reed. Then take it for the record, sir.
    General Dunford. Thank you.
    [The information referred to follows:]

    With the strategic partnership between the United States and 
Afghanistan reinforced with a bilateral security agreement (BSA), I am 
confident the bulk of our residual force would return home by the end 
of 2016. This additional 2-year period will allow us to ensure our 
years of support are reinforced with a focused train, advise, and 
assist effort, as well as enhanced development of the Afghan Security 
Ministries. The BSA will demonstrate our mutual commitment and advance 
our efforts.

    Chairman Levin. Thank you very much, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General, I thank you for your service. A great source of 
pride to all of us is your service and that of your 
predecessors in Afghanistan and Iraq, and we appreciate your 
incredible service.
    General, we've heard from several officials from the 
Department of Defense (DOD) attempting to characterize the 
status of al Qaeda in Afghanistan, the region, and worldwide. 
We've heard words like ``metastasizing'' and ``persistent.'' 
How would you describe al Qaeda in Afghanistan and Pakistan?
    General Dunford. Senator, today, and because of largely our 
Special Operations Forces (SOF) and the pressure that we have 
put on the network over the last few years, I would 
characterize al Qaeda in Afghanistan as in a survival mode.
    Senator McCain. General Allen stated last year that he 
would need 20,000 U.S. troops in Afghanistan after 2014. Now, 
as I understand it, we're down to 10,000 plus a few thousand 
NATO troops. Could you state how many troops we need and for 
how long?
    General Dunford. Senator, I'm comfortable with that range 
that we talked about earlier in terms of the NATO 8,000 to 
12,000 for a train, advise, and assist mission, with another 
mission over and above that that would conduct 
counterterrorism. That would be a U.S. mission only. I think 
what's important when we start to talk about numbers is what we 
expect those forces to do has evolved over time as the Afghan 
Forces have increased their capability. What we'll be doing in 
2015 largely is addressing the self-sustainability of the 
Afghan Forces. They will clearly be in the lead in the fight 
and the only operations that I would envision us conducting in 
2015 against an enemy would be counterterrorism operations, 
again a U.S. mission.
    Senator McCain. But it is your view it would be 10,000 plus 
several thousand NATO troops?
    General Dunford. Senator, I'm comfortable with the range of 
forces, that 8,000 to 12,000 NATO mission plus a 
counterterrorism mission on top of that.
    Senator McCain. According to a Wall Street Journal report 
from January 21, it cited a senior DOD official stating, ``The 
new plan would start with 10,000 American troops at the 
beginning of 2015, but the number would decline sharply under a 
2-year drawdown schedule. The number would be close to zero by 
the time Mr. Obama leaves office in early 2017.''
    In your professional military opinion, does this course of 
action entail a level of risk to our mission that you would 
find acceptable?
    General Dunford. Senator, we have provided the President 
with a range of options. All those options have articulated 
conditions that would have to be met over time and the risk 
associated with not meeting those conditions.
    Senator McCain. Would you say it's a very high risk if we 
had a ``sharp decline,'' ``sharply under a 2-year drawdown 
schedule,'' so it would be close to zero by the time Mr. Obama 
leaves office in early 2017?
    General Dunford. Senator, that would depend on the progress 
of the ANSF and the environment within which they'd be 
operating.
    Senator McCain. So you are not willing to state whether 
there would be an increased risk or not?
    General Dunford. There would be increased risk, Senator.
    Senator McCain. Thank you.
    I can only speak for myself, but if that's the plan, that 
we would be close to zero by the time Mr. Obama leaves office 
in early 2017, I would not support keeping troops behind, 
because it would be a needless risk of American lives.
    We all know that you can't deal any further with President 
Karzai, right, on the BSA?
    General Dunford. I think that's fair to say, Senator.
    Senator McCain. But we also know that all of the 
presidential candidates favor a BSA and say they would sign it; 
is that correct?
    General Dunford. Senator, all the candidates do and the 
overwhelming majority of the Afghan people also support the 
BSA.
    Senator McCain. You are capable and ready to make plans for 
the signing of that BSA sometime after the presidential 
election? You are capable of adjusting to that eventuality?
    General Dunford. Absolutely, Senator.
    Senator McCain. But it would be much harder if there's a 
runoff?
    General Dunford. It would be much harder if there's a 
runoff. If we have a new president by August, I'm comfortable 
that we'll be able to maintain the options through that period 
of time without any difficulty.
    Senator McCain. It's very disturbing to me to hear the 
President say that the longer Karzai waits the lower the number 
of troops will be. I don't get that connection. Why would 
Karzai's intransigence dictate the number of troops and 
missions that we would want as part of the residual force?
    General Dunford. Senator, I can't talk to that.
    Senator McCain. I'm sure you can't.
    So are we able to get out all the equipment that we need to 
get out of Afghanistan on schedule?
    General Dunford. I'm absolutely confident we'll be able to 
do that, Senator.
    Senator McCain. Even if the Russians cut off one of the 
avenues?
    General Dunford. Yes, Senator. Due to the great efforts by 
U.S. Transportation Command and U.S. Central Command, we have 
resilience in the system and I'm not concerned at all about a 
loss of the Russian Northern Distribution Network, the Russian 
piece of that.
    Senator McCain. Are you confident with the level left 
behind of, say, 10,000 plus some NATO forces, that the Afghan 
military will have capability such as air evacuation, close air 
support, and especially intelligence capabilities?
    General Dunford. Senator, two of the things you mentioned 
are actually gaps that will exist in 2015. The Afghan Air Force 
won't be fully developed. The intelligence enterprise won't be 
fully developed. Their special operations capability won't be 
fully developed. They'll still have gaps in their ministerial 
capacity. Those are the four main areas we'll be focused on in 
2015.
    Senator McCain. So in your view, if we left Afghanistan 
with no residual force, we could see a replay of the Iraq 
scenario?
    General Dunford. Senator, if we leave at the end of 2014, 
the ANSF will begin to deteriorate. The security environment 
will begin to deteriorate, and I think the only debate is the 
pace of that deterioration.
    Senator McCain. I thank you, General. I just want to say 
again, you're in a long line of really outstanding leaders and 
all of us are very proud of the service that you have rendered 
and continue to render to our country.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, General Dunford. Again, as everyone has alluded 
to, we're very appreciative of your service.
    This war has defined a whole generation of Americans and we 
have reached a decision point in the conflict, and we owe the 
American people an awful lot of explanations. I know Senator 
McCain was just talking about the transition that's going on 
and you talked about the amount of time that you would need if 
there is a new elected president and going in a different 
direction.
    It doesn't look like Karzai's going to release his hold 
whatsoever. So he remains to be a force for a long time. I 
don't see how anything would ever change, knowing his 
intentions and being telegraphed as well as they are. Do you 
acknowledge that?
    General Dunford. Senator, I acknowledge President Karzai's 
intent to remain influential in Afghanistan. But I also look at 
all the presidential candidates who have very strongly and very 
publicly articulated the need for a U.S. coalition presence 
after 2014, but am actually more encouraged by my day-to-day 
engagement with the Afghan people and the polling that we have 
done, where 80 percent of the Afghan people recognize that 
their future is inextricably linked to a presence of coalition 
and U.S. Forces.
    Senator Manchin. It has the appearance of a Russia-Putin 
model.
    General Dunford. Senator, that may or may not be President 
Karzai's intent. I don't know. But I'm not sure that reflects 
his capability.
    Senator Manchin. Let me speak to this, then. I've been very 
critical about the amount of contractors we have, and I 
understand right now we have 78,000 contractors in Afghanistan 
and only 33,000 troops.
    General Dunford. Senator, a number of the contractors also 
support the NATO force of about 45,000 total forces.
    Senator Manchin. Can you tell me that contracting with 
those forces will be reduced relative to the combat forces?
    General Dunford. We would be over time reducing. In fact, 
we're in the process now of reducing contractors. I think we've 
reduced them some 50 percent over the past 12 months.
    Senator Manchin. The other thing, I understand we have 
about 2,000 Mine Resistant Ambush Protected (MRAP) vehicles in 
Afghanistan at $1 million apiece, $20 billion worth of MRAP 
vehicles?
    General Dunford. We still have on the ground 2,000 MRAP 
vehicles that are being used. Are you referring to the ones 
that we have declared excess?
    Senator Manchin. It's hard for people in West Virginia, and 
for me to go home and explain to them how we can build 
something that costs that much, take it over there, and just 
disregard it like it wasn't any value at all. There has to be 
value somewhere.
    General Dunford. Senator, we're not discarding 2,000 MRAP 
vehicles. We have about 1,200 right now that the Services have 
declared as excess to their requirements.
    Senator Manchin. What will happen with those?
    General Dunford. We're in the process right now of seeing 
if there are any of our allies that can use those vehicles. The 
Services are also going back to review those requirements. I've 
put a stop on any destruction of vehicles except those that are 
battle damaged.
    One of the challenges, Senator, is that if we want to give 
them to somebody they have to accept them as is, where is. So 
it's very expensive for countries to take those vehicles from 
Afghanistan. It costs us less than $10,000 to destroy a 
vehicle. It would cost us over $50,000 to move a vehicle to 
another location. So in order for us to give it to somebody 
else, we'd have to invest a significant amount of money to move 
the vehicles.
    Senator Manchin. But if we're drawn into another conflict, 
we'd have to spend a million dollars to replace it.
    General Dunford. Senator, the Services again have 
identified the requirements that they believe they'll need for 
future conflicts, and the majority of the MRAP vehicles that we 
purchased are already back in the United States, not in 
Afghanistan.
    Senator Manchin. Sir, can you honestly tell the American 
people, can you tell the people in West Virginia, that we 
should be in Afghanistan and stay in Afghanistan, it's our 
purpose to do that? Our mission was to fight al Qaeda, to fight 
the terrorists, not to rebuild that nation or change the 
culture of that nation.
    I have trouble explaining to West Virginians, and we're a 
very hawkish State. We like a good fight and sometimes if 
there's not a good fight we'll fight each other just to stay in 
practice and get ready for the next fight. This one makes no 
sense to any West Virginian at all, not anywhere I go in my 
State.
    General Dunford. Senator, I would assess that if we don't 
stay there, continue the job of growing the Afghan Forces so 
they can replace us in providing security in Afghanistan, we'll 
actually have a good fight.
    Senator Manchin. What's the casualties right now between 
green on blue?
    General Dunford. We had 14 incidents of insider attacks 
during 2013. We had 48 in 2012.
    Senator Manchin. Sir, it's unbelievable. I attended a 
Wounded Warrior dinner and talked to a young man. It didn't 
look like he'd been injured. I thought he was one of the 
support staff. He was very distant, and when I started talking 
to him he began to engage more. His story, it tore me apart. He 
says: ``I was shot, I was shot by the person I trained for 6 
months.''
    They live in this constant fear, and you're saying it's 
going to get better and we have to get them to a higher level? 
I don't think we're ever going to change that mentality. I 
don't know, sir. I have all the respect in the world, but I 
don't know how we answer these types of questions.
    General Dunford. Senator, when I look at where we were in 
2009, the very first trip I made to Afghanistan, there was 10 
of us to 1 member of the ANSF. The ratio now is completely 
inverse. With a very small presence that we have today and we 
continue to have after 2015, we're going to ensure that the 
investment that we have made in blood and treasure over the 
past 12 years actually results in us achieving our objectives 
of a stable, secure, unified Afghanistan from which we cannot 
be attacked.
    Senator Manchin. Let me just ask one final question, sir. 
Are we to tell the American people, and I'm to tell the West 
Virginian citizens, that we have to maintain a constant 
presence from now into perpetuity, as we have done in Korea? Is 
this what Afghanistan is turning into?
    General Dunford. Senator, I wouldn't assess that to be the 
case.
    Senator Manchin. So you think there's a time that we can 
exit?
    General Dunford. I absolutely do believe that.
    Senator Manchin. I'm saying if 13 years haven't done the 
job, how many more years do you think it'll take? That's the 
question I cannot answer. We're just basically saying, if you 
can't do the job in 13 years, you're not going to get the job 
done.
    General Dunford. Senator, I would assume because we have 
vital national interests in the region that the United States 
would be engaged in the region for a long period of time to 
come. The nature of our engagement and the nature of our 
presence would, of course, change over time.
    Senator Manchin. Again, sir, thank you so much for your 
service. I just would respectfully disagree. Thank you, sir.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Wicker.
    Senator Wicker. Thank you. General, thank you for your 
service. Mr. Chairman, thank you for your service, too.
    It's not hard to understand how my friend from West 
Virginia could have the view that he has. I must say that I 
disagree most vigorously with the point of view that he has 
just set forth in his questions. I think it's remarkable, and I 
hope people listening today in the United States, on Capitol 
Hill, in Afghanistan, Pakistan, and any place where we have 
interests, I hope people are listening to the chairman of this 
committee, who made a profoundly remarkable opening statement, 
which I'd like to refer to.
    Frankly, I'd say to my colleagues who have a different 
view, there's a frustration on the part of our chairman that 
the American people haven't been given a balanced view about 
the success we've had in Afghanistan and a balanced view about 
the American interests that we will continue to have, 
regardless of what the decision of this administration is going 
forward over the next few months.
    The chairman in his opening statement today regrets that a 
plurality of Americans believe that sending our forces to 
Afghanistan was a mistake. General, I don't think we should 
forget what happened in 2001. We went into Afghanistan by a 
virtually unanimous vote of this Congress. I was in the House 
of Representatives at the time. There was one dissenting vote 
in the House of Representatives, and as far as I know, Mr. 
Chairman, it was unanimous here in the Senate.
    Now, I'm not going to say that every decision that has been 
made since we went in in early 2001 has been correct. But I do 
think it's remarkable, as the chairman has pointed out, a 
recent public opinion poll in Afghanistan shows that a large 
majority of Afghans believe that conditions in the country have 
improved over the last decade.
    While the American people are not being given the entire 
picture of the success story there, the Afghan people see it on 
the ground. I think that's reflected by the vote of the loya 
jirga.
    Tell me, General, is the loya jirga some sort of elite 
group that represents only a section of the country or is it 
pretty much of a cross-section? Enlighten the committee about 
how many factions, tribes, and ethnic groups were represented 
by the loya jirga?
    General Dunford. Senator, it was over 2,000 participants 
from all of the 34 provinces in Afghanistan. All the tribes 
were represented. I think it's fair to say it was a 
representative sample of Afghan leadership.
    Senator Wicker. What was their view about the importance of 
continued American participation and involvement in the 
stability of this region after this presidential election?
    General Dunford. Senator, they unanimously endorsed the 
requirement for the BSA and a continued U.S. and coalition 
presence after 2015. I'd also most importantly point out that 
the loya jirga is representative of the sentiment of the Afghan 
people, where at the lowest 67 percent, at the highest 80 
percent in the polling that we have done, support the BSA and a 
continued presence.
    The one thing I'd also like to say, Senator, is that just 
10 days ago I met with nine members of the Afghan parliament, 
basically the oversight committees of the ANSF. I asked them 
what message I should come back and deliver when I came back 
for testimony. They also, all of them overwhelmingly, said: 
``Don't let one individual speak for Afghanistan. The Afghan 
people appreciate what the American people have done and 
recognize that their future here in Afghanistan is inextricably 
linked to continued presence.''
    Senator Wicker. So it's not the view of the loya jirga and 
not the view of the polling that the United States has invaded 
this country or that the United States of America wants to 
occupy Afghanistan over the long haul? That's not their view, 
is it?
    General Dunford. Senator, that's not at all the feeling of 
the Afghan people at this time, and we certainly have no 
intention of doing that.
    Senator Wicker. I believe you mentioned in your testimony 
that this is a feeling of Afghan Government officials, civil 
leaders, and that there's a growing appreciation of the 
coalition's efforts; is that correct?
    General Dunford. That's correct, Senator.
    Senator Wicker. I just wish--and I have to underscore--I 
wish this message were getting through. I have to underscore 
what our distinguished chairman has said on the second page of 
his testimony: ``Unfortunately, the American people rarely read 
about the positive developments in Afghanistan. Instead, the 
media focus almost exclusively on negative incidents, depriving 
the American people of the sense of accomplishment they would 
receive if they were given a balanced view.''
    I appreciate your being here today, General, to give us a 
balanced view. I think it may be incumbent upon us on both 
sides of the dais, not as Republicans and Democrats, but as 
Americans, to say the troops that have sacrificed, the American 
taxpayers that sacrificed over more than a decade, has resulted 
in tangible positive accomplishments for the people in this 
region, and also that affect the American interests in a 
positive way.
    I just hope we don't lose our resolve. I think we can 
decide as a body politic to lose this war nonetheless. We could 
do it if we try. But we are at the point of having a success, 
and if we don't send to the Afghan people a signal that we're 
abandoning them, that we're once again going to look another 
way and get interested in something else, we don't send that 
signal, we can have an historic partnership that can leave us 
there with a very small footprint, with the United States still 
looking out for its national interest, but doing, as you so 
successfully have done, General, and your comrades, turning 
this fight over to the locals, but having us there as partners 
who are sending a signal that we're not going to forget about 
them once again.
    Thank you for indulging me, Mr. Chairman. Mr. Chairman, 
thank you for your profound statement which tells the truth to 
the American people about the success of our troops in this 
area. Thank you.
    Chairman Levin. Thank you very much, Senator Wicker. 
Personally, let me thank you for your steadfastness also along 
the way here.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Wicker, I can't imagine the press ever focusing on 
negative and controversy. [Laughter.]
    General Dunford, thank you very much for being here this 
morning and for your service to the country.
    One of the things that has impressed me on the trips that I 
have made to Afghanistan has been the close relationship 
between what happens in Afghanistan and what happens in 
Pakistan. I wonder if you could assess the kind of role that 
you think Pakistan can play post-2014, and also if you could 
speak to the efforts in Pakistan to engage in talks with the 
Taliban and how that might affect what's happening in 
Afghanistan?
    General Dunford. Senator, thanks for that question. I find 
it difficult to envision success in the region without 
cooperation of Pakistan and without an effective relationship 
between Afghanistan and Pakistan. Over the past year I've been 
encouraged on a couple of fronts. One is, I believe, that 
Pakistan also recognizes the existential threat of extremism to 
their own security, and they also recognize that it's not in 
their best interests to have anything other than a stable, 
secure, and unified Afghanistan.
    Since August, the Heads of State have met four times, which 
I think is very positive. That hadn't happened in quite some 
time. With Prime Minister Sharif has come new resolve to 
improve the relationship between Afghanistan and Pakistan. The 
two areas that they have identified for cooperation are 
important to point out. One is to have a common definition of 
extremism and to cooperate on dealing with extremism. The other 
is to come up with a broader border management framework that 
would address the political issues, the economic issues, as 
well as the security issues between the two countries.
    Our role is to work on developing a constructive military-
to-military relationship between Afghanistan and Pakistan. I've 
met with the new Army Chief of Staff, General Raheel Sharif. 
He's indicated strong resolve to improve the relationship 
between the ANSF and the Pakistani army, as have his Afghan 
counterparts, and we'll spend a lot of time over the next 
several months doing that. One of the things we want to 
accomplish by the end of the year is to have a constructive 
bilateral relationship between Afghanistan and Pakistan. 
Heretofore, over the last few years, it's actually been 
trilateral. We have played an important facilitating role. We 
hope over time to work ourselves out of that role, certainly 
maintain effective bilateral relationships with both countries, 
between the United States and Pakistan, and the United States 
and Afghanistan, but play less of a role in the important 
relationship between those two countries.
    Senator Shaheen. Can you speak to efforts to engage in 
talks with the Taliban on the part of Pakistan?
    General Dunford. Senator, we're watching that very 
carefully. To be honest, we don't have any insight into exactly 
the status of those discussions. What we have seen recently is 
continued violence by the Tehreek-e-Taliban Pakistan (TTP), the 
Pakistani Taliban, if you will. We've also seen some limited 
military operations, particularly in the North Waziristan area, 
against the TTP. But what we know is what you know, and that is 
that Prime Minister Sharif and the leadership in Pakistan are 
committed to try to find some peaceful resolution. That's 
certainly in Pakistan and as well as in Afghanistan what needs 
ought happen in the long term. It's just not clear to me today 
if the conditions are set for constructive peace talks between 
the TTP and the Government of Pakistan, but it's clear that 
they're working to that end.
    Senator Shaheen. Thank you.
    We had a few minutes to chat before the hearing started and 
one of the things you commented on were the number of women who 
are volunteering and signed up to help with the elections in 
April. For the first time since the Afghanistan Security Forces 
Fund was established, money was explicitly authorized last year 
for recruitment and retention of women in the ANSF. Now, 
obviously, that's a separate issue from the elections, but I 
think it speaks to the empowerment of women in Afghanistan.
    I wonder if you could talk about how that dedication of 
that fund to help assist with recruiting women and keeping them 
in the services in Afghanistan will work and whether we're 
seeing any of the benefits of that yet.
    General Dunford. Senator, thanks for that question. It's 
clearly a very difficult issue. There's a strong cultural bias 
against women participating in the security forces, in the army 
or the police. There's a stated goal of 10 percent and we're at 
about 1 percent. There are some signs of progress. We just 
recently saw the first woman appointed as a police chief in 
Afghanistan and there's a second now that is in line to become 
a police chief. That's a positive sign. There are some general 
officers both in the Ministry of Interior Affairs and in the 
Ministry of Defense, so there are some role models coming up.
    In the case of these 13,000, it's interesting. There's 
13,000 female searchers who have been identified. That in 
itself was difficult again because of the cultural bias. But in 
a conversation with the Ministry of Interior Affairs which I 
think you'll find encouraging, Minister Daudzai, he plans to 
use these 13,000 as a pool from which to recruit policewomen. 
So as he gets women that identify themselves as willing to step 
up and do something as important as be a searcher at the 
elections and facilitate the transition that's going to occur 
subsequent to 5 April, he also recognizes that that's an 
eligible pool of women who would probably make good policewomen 
and he plans to use that.
    He has a stated goal of increasing the numbers of 
policewomen in Afghanistan by 5,000 in the next 24 months and 
then 10,000 by 2017. My sense is he's very committed to that. 
My sense also is that the cultural challenges that exist are 
very real and it's going to take some time before that happens.
    But certainly if you would look at the plight of women 
today and the prospects for their participation and success in 
the security ministries, it's certainly much higher than even 2 
or 3 years ago.
    Senator Shaheen. My time is up, but if I could just make a 
follow-on comment. That is, to the extent that we can encourage 
that sentiment to continue as we look at the new administration 
taking over in Afghanistan, certainly that's something that all 
of us here support.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, General Dunford, for your steadfast 
leadership in such an important time. I know all of us admire 
your leadership and your service to our country. I want to 
thank you for the sacrifice that your family's been making 
during your service in Afghanistan as well.
    I want to ask you, General, if we were to withdraw from 
Afghanistan this year, what happens to the women in 
Afghanistan?
    General Dunford. Senator, I think the plight of women would 
be pretty dire if we were to withdraw at the end of 2014. I 
think the support we're providing in security, the support 
we're providing for political transition, actually creates the 
climate within which women and other members of society can 
actually flourish and achieve their own goals and objectives.
    I would say again the prospects are not very good if we 
were to withdraw at the end of 2014 for women.
    Senator Ayotte. I don't think any of us will ever forget 
the images in the soccer stadiums with the Taliban and what 
they did to women. As we look toward the importance of our 
commitment in Afghanistan, let us not forget what you just 
said, that if we leave and we abandon the work that we have 
done in Afghanistan, that we could send women back in those 
soccer stadiums, and I don't think that's acceptable to any of 
us. Would you agree, General?
    General Dunford. Senator, I would. I think it's probably 
important for me to share with you that I didn't provide you a 
minute ago with my own assessment in isolation. That's the 
feedback that I received from the Afghan women that I've spoken 
to. So I'm actually voicing on their behalf their concerns 
about 2015 and beyond were we not to maintain a presence.
    Senator Ayotte. If we don't maintain a presence, what 
happens with al Qaeda? Also I would ask you, how quickly would 
this happen? We talk about--when I hear, for example, why does 
it matter in terms of people at home if we were to withdraw 
this year, what happens with al Qaeda and how quickly does this 
all unravel? I think this is important for people to 
understand, that we've made great success, but if we suddenly 
pull back what happens and how quickly?
    General Dunford. Senator, thanks. First of all, I think the 
deterioration of the Afghan Forces begins to happen fairly 
quickly in 2015. That's because, again, where we are today in 
the campaign is we've focused on quality of the force, building 
battalions, building brigades, building corps. What's now our 
focus is building the systems and the processes that allow 
those tactical units to sustain themselves.
    So things that would happen almost immediately after we 
would leave in 2015 is units would run out of fuel, pay systems 
would not be completely operable, spare parts would not be 
available for vehicles. So we'd start to see decreased 
readiness in the ANSF and obviously their operational reach 
would be less.
    We also would not be able to complete our work with the 
Afghan Air Force, which really is 2 or 3 years away. We're 
still in the process of actually fielding the Afghan Air Force.
    With regard to al Qaeda, again my assessment is that the 
pressure that we put on al Qaeda virtually every day in 
operations by our SOF in cooperation with their Afghan partners 
is what has kept the al Qaeda from reconstituting. We know from 
intelligence that they have every intent of continuing to 
operate from Afghanistan and Pakistan. They would view it as a 
great victory were we to withdraw and were they to then have 
the space within which to conduct operations against the West 
once again. Again, I think it would not only be a physical 
reconstitution, but a huge moral factor for al Qaeda as a 
movement were we to withdraw from the region in 2015 and allow 
them to once again establish preeminence in the region and 
become the vanguard for the al Qaeda movement from the region.
    Senator Ayotte. So the vanguard for the al Qaeda movement 
and a risk to the United States of America again, correct, 
General?
    General Dunford. Senator, I don't think there's any 
question that eventually there'd be a risk to western 
interests, including the United States.
    Senator Ayotte. So there's no doubt it's so important that 
we get this right. One of the things that I've been encouraged 
by is that all the presidential candidates support a BSA. 
Karzai's gone, right? With all due respect, he's made a lot of 
troubling comments that I think all of us disagree with. But 
he's gone. He's gone because there's going to be a new 
election, and all of the candidates that are running have 
committed to signing the BSA, if elected, correct?
    General Dunford. That's correct, Senator.
    Senator Ayotte. I know that you said as long as the runoff 
goes in August, the United States would have adequate time for 
planning going into 2015. How important is it that we announce 
our follow-on commitment, that the President do that, with 
regard to the timing of the runoff in August? So what's the 
timing there and how important is that timing in terms of us 
making a commitment on behalf of our country as to what our 
follow-on force will be?
    General Dunford. Senator, again, there's several issues. If 
you don't mind I'd like to just touch on all of them very 
briefly. To me, the delay in the BSA, part of it is the 
military campaign, and I mentioned that it begins to be high 
risk if we don't make a decision by September; we have a high 
risk against an orderly withdrawal. That's simply because of 
how long it takes to get all the equipment out, all the people 
out, and to transfer all the facilities. We start to run into a 
situation where there are as many tasks to do as there are days 
to do those before December 31. So that's why I characterize 
that as high risk subsequent to September.
    I think the real challenge with the delay in the BSA and 
the delay in certainly post-2015 actually starts in Kabul with 
the leadership, the Afghan people, and the ANSF across the 
country. I think it is also fair to say that currently the 
uncertainty about 2015 affects the behavior of regional actors, 
to include Pakistan. Those nations are hedging, not certain 
what will be, what the facts on the ground will be in 2015.
    Then the other issue that I'm concerned about in terms of 
how long this uncertainty would last would be the willingness 
and the ability of the coalition to maintain cohesion and 
actually participate. I think it's very important to point out 
that the contribution of the coalition has been significant, 
and I assess that in a future mission it would be very 
important for us to do a future mission also as a coalition.
    Senator Ayotte. Thank you, General. I know that my time is 
up, but I would just say this. We know that Karzai is going, 
that the newly-elected president, whoever comes out of this, is 
willing and is committed to signing the BSA. I would hope that 
our President would make an announcement to give certainty to 
the situation in Afghanistan as to what our follow-on 
commitment will be and to make that announcement to ensure that 
the Afghan people know that we are committed to following 
through here and that we are going to ensure that Afghanistan 
does not, for example, become a safe haven for al Qaeda, all 
the things that you just talked about. So I hope that Mr. 
President will come forward and really give that certainty.
    I understand and respect that that is contingent on the BSA 
being signed and protection for our troops. But I believe the 
President could make that contingent upon that signing.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    General Dunford, it is good to see you again. I enjoyed our 
visit in July and I appreciate your service. I echo the 
comments that Senator McCain made.
    I also want to underline points made by the chairman in his 
opening statement. The American role in improving the life of 
Afghans has truly been massive, and the more we do that the 
more we inoculate against extremism. The mission is about 
training the ANSF, but it is also about making Afghans 
understand that they don't have to go back to what they had.
    Just one bit of evidence that I just find staggering: Since 
the Taliban fell in Afghanistan, life expectancy in Afghanistan 
has improved from 45 years to 62 years. Now, in a country of 30 
million people, if you can improve life expectancy by 17 years 
in about a decade that's an additional 500 million years of 
life for the current Afghan population that has been a result 
of the work that the United States and other nations have done. 
It has largely been done by public health investments that have 
reduced child mortality.
    You tell me that the polling suggests that Afghans like the 
United States. If you can reduce the risk of my children dying 
young and increase life expectancy in my country by 17 years, 
I'm going to like the United States too. I'm going to like the 
partnership. I'm not surprised at all that the polling results 
are so strong.
    I think we do have to explain. Maybe our citizens are not 
thinking that the investment that we should be making should be 
about the improvement of life expectancy in Afghanistan, but 
this is inoculation against extremism. This is the kind of real 
life tangible evidence that Afghans can see that will help them 
not fall backward into the Taliban, al Qaeda, or other 
extremists.
    So I want to associate myself with the comments made 
earlier that the comprehensive nature of the investment by the 
United States and its partners in Afghanistan has made a 
significant difference and that bodes well going forward.
    I met in Bahrain in December with the Foreign Minister of 
Iraq, Foreign Minister Zebari, and he is now very public about 
this: ``I wish in Iraq we had worked out an acceptable BSA with 
the United States and the United States had stayed.'' He says 
this publicly. He says: ``We made a mistake by not being 
willing to work out a BSA with the United States and we now 
regret it.'' He has even indicated that he has said that 
directly to Hamid Karzai: ``Do not make the mistake that we 
made in Iraq, because what's happening in Iraq now is tragic, 
could have been avoided.''
    But for all the good that we can do, we shouldn't stay 
unwanted. We shouldn't stay if we can't work out a BSA. We're 
not interested in being occupiers. We're interested in being 
partners. I'm happy to hear your testimony, General, that the 
Afghan people want us to be partners.
    A couple of questions about the election. These are very 
important. It's hard to fathom. Here it's March 12 today, and 
these elections are going to happen in the next 3\1/2\ weeks. 
You have indicated that all the presidential candidates support 
a BSA with the United States. I know I'm saying this for the 
record. I know the answer to this. This isn't like private 
support, where they've said to us: ``Hey, we'll sign a BSA.'' 
They're taking this position publicly in the midst of an 
election campaign and telling their voters, their electorate, 
when asked: ``We want the United States to stay and we want to 
work out an acceptable BSA.'' Isn't that correct?
    General Dunford. Senator, that's correct. This is the very 
first time they've had a very public campaign process, to 
include televised debates. So these comments have been made in 
the context of televised debates and public appearances, which 
included media engagement. So it's absolutely their public 
position. Clearly they wouldn't be saying that if it didn't 
reflect the electorate.
    Senator Kaine. Right. I'm sure they're as responsive to the 
electorate as we are. They can read polls just like we can. But 
this issue of U.S. presence is not a minor little issue in the 
presidential campaign. There are other issues certainly, but I 
imagine, and from the press I've read, it suggests that the 
continuing U.S. presence and the working out of this deal is a 
major piece of the public dialogue and debate in the run-up to 
these presidential elections. Therefore, the result of the 
elections will be a mandate from the Afghan public in terms of 
their desire about this continuing relationship, correct?
    General Dunford. Absolutely, Senator. I believe that 
whoever the next President of Afghanistan will be, he will come 
into office with a mandate to enter into a partnership with the 
United States and the coalition.
    Senator Kaine. Now, I know that that creates some real 
anxiety in the Taliban, and they have just recently done very 
public calls for violence to disrupt the elections. Those 
elections were disrupted to some degree on election day with 
violence a number of years ago. But, General Dunford, you 
indicate your belief that the increased size of security 
forces, the ANSF, should be sufficient to protect against 
significant violence marring these elections. That is your 
thought today?
    General Dunford. Senator, it is. It's based on my 
assessment not only of the Afghan performance day-to-day, but 
again the major events that have occurred in Afghanistan over 
the last year where the enemy has had a demonstrated intent to 
disrupt those events. Again, the Islamic festival that I 
mentioned, the loya jirga itself in Kabul, where they locked 
down the entire city, really demonstrated to me the ability of 
the ANSF to create a climate within which inclusive elections 
could take place.
    I would not say that it'll be violence-free. There will 
certainly be high-profile attacks and the enemy will have a 
concerted effort to disrupt the elections. But at the end of 
the day, I'm confident that they will be unsuccessful in their 
efforts to disrupt the elections.
    Senator Kaine. That is good to hear, General. Thank you 
very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I'd like to add my compliments to the chairman for his 
opening statement. I just can't believe you're leaving the 
Senate in mid-life like you are. Very disappointing.
    Chairman Levin. Thank you. Thanks for the ``mid-life'' 
comment. [Laughter.]
    Senator Graham. From the South Carolina point of view, 
you're just getting started. [Laughter.]
    Thank you for coming, General. I remember when all these 
rows in the room were full, with people carrying bags and 
everybody was hanging on every word about Afghanistan. I'm just 
here to say that the decision we're about to make as a Nation 
regarding Afghanistan is probably the single most important 
decision we'll make in the 21st century in securing our 
Homeland other than the Iranian nuclear program. I can't think 
of a more important decision for America to make than how we 
transition in Afghanistan. There may not be a lot of interest 
in the room, but to the members of the committee, thank you; 
you've acquitted yourselves well.
    No BSA, no troops, right?
    General Dunford. That is correct, Senator.
    Senator Graham. So to the Afghan people: If we don't have a 
BSA, not one troop with my support will be left behind. We're 
not going to put our young men and women in that situation.
    The good news is most Afghans want us to stay, right?
    General Dunford. That's correct, Senator.
    Senator Graham. Maybe what you're telling us, if we're 
smart and we end this well, we can construct a scenario where 
the Afghans will help defend America.
    General Dunford. Senator, if you look back at the nations 
that we helped in the 1990s, many of them are actually on the 
ground with us in Afghanistan today. I'd point out Georgia as 
one of the examples.
    Senator Graham. But what's in it for us is a fair 
proposition for us to be exploring. What's in it for us to me 
would be an Afghanistan willing to fight the terrorists and 
help defend our Nation from attack. Do you agree with that?
    General Dunford. I agree, a partnership with Afghanistan in 
the fight against terrorism is absolutely where we're trying to 
go.
    Senator Graham. You want to help women in America make sure 
al Qaeda can't kill a bunch of us here in the Homeland, right?
    General Dunford. That's correct, Senator.
    Senator Graham. It's just not about Afghan women; it's 
about American women, about American men. So we have an 
historic opportunity to turn a country that's been isolated in 
history into an ally and can be a front-line defense against al 
Qaeda. Do you agree with that?
    General Dunford. I agree with that, Senator.
    Senator Graham. So the goal is to keep the enemy away from 
the Homeland and to build partnerships. Isn't that the general 
goal in how to win the war on terrorism?
    General Dunford. It is, Senator.
    Senator Graham. Would you agree that Afghanistan is the 
central front in that battle, because this is where it all 
started?
    General Dunford. I do, and particularly in South Asia, 
Senator.
    Senator Graham. So if you believe this is the place it all 
started and we can leave behind a scenario where it ends well, 
the question is the cost-benefit analysis. Before September 11, 
on September 10, 2001, how many troops did we have in 
Afghanistan?
    General Dunford. We didn't have any troops on the ground.
    Senator Graham. How many ambassadors did we have in 
Afghanistan?
    General Dunford. We did not have an ambassador.
    Senator Graham. How much money did we give to Afghanistan?
    General Dunford. We didn't give any, Senator.
    Senator Graham. So we've tried that and it didn't work.
    How much has September 11 cost us in terms of dollars?
    General Dunford. Billions of dollars, Senator.
    Senator Graham. A lot more than the presence in 
Afghanistan?
    General Dunford. That's fair to say, Senator.
    Senator Graham. So if you looked at the cost to the country 
in terms of financial costs, going to the model of ``leave them 
alone, they'll leave us alone,'' did not work. To our folks in 
West Virginia: It cost us a lot more to ignore Afghanistan than 
it has to be involved.
    Now, the 6,000 lives plus lost in Afghanistan and Iraq are 
heartbreaking, but these were soldiers that signed up and were 
willing to defend the Nation. 3,000 civilians died in the blink 
of an eye on the Homeland.
    Do you believe that if we ignore the threats coming from 
that part of the world that the next attack on the United 
States could be greater than it was on September 11?
    General Dunford. I absolutely believe there will be another 
attack. Whether it will be greater or not, I don't know, 
Senator.
    Senator Graham. Would you agree with me the capabilities 
that are beginning to be available to terrorist organizations 
are greater than they were before September 11?
    General Dunford. Yes, Senator.
    Senator Graham. Okay. So Karzai is an outlier, let's just 
leave it at that, right? He happens to be the president, but he 
doesn't represent Afghanistan's view of what to do regarding 
the U.S.-Afghan relationship; is that a fair statement?
    General Dunford. It is, Senator.
    Senator Graham. The Afghans don't see us as the Russians or 
the British occupiers because they could kill us all tomorrow 
if they wanted to, couldn't they? How many people are in 
Afghanistan?
    General Dunford. 25 to 30 million.
    Senator Graham. Okay. How many are there of us?
    General Dunford. Right now there are 33,000 Americans.
    Senator Graham. How long could 33,000 survive if 25 or 30 
million saw us as an occupier?
    General Dunford. It would be a difficult circumstance to 
find yourself in, Senator.
    Senator Graham. Yes. I wouldn't want to be there.
    So the point is, you have green on blue. That happens in 
every war. But I'm here to tell you, if they didn't want us, we 
wouldn't be there. It offends me when people suggest that we're 
the British Empire of a long time ago or the Russians. We're 
not, not in the eyes of the Afghans.
    So you have two choices. One choice is to go back to the 
pre-September 11 nobody there, no money there. The cost of 
staying: How much would it cost the American taxpayers to 
maintain a 350,000-plus Afghan army? How much would it cost to 
maintain 10,000 to 12,000 troops? Compare the benefit we would 
achieve from that investment versus leaving, nobody left 
behind, and see where the smart play is at. Can you run us 
through that quickly?
    General Dunford. Senator, the cost of ANSF at about 352,000 
in 2015 would be $5 billion. Our coalition partners have 
committed to pay $1.3 billion of that. Afghanistan will pay 
approximately $500 million of that. So the cost to the United 
States would be somewhere on the order of $3 billion.
    We're still working the cost figures for our actual 
presence overall right now, but certainly far less than the 
cost that you just outlined.
    Senator Graham. So you put that in one bucket. The other 
bucket is the cost if we leave, and you're telling us the cost 
of leaving is far greater than staying under the configuration 
you've just indicated; is that correct?
    General Dunford. Absolutely, sir.
    Senator Graham. A final thought. Is it fair to say that our 
national security interests are not going to be judged in 
history by the day we left Afghanistan, but by what we left 
behind?
    General Dunford. Senator, I think it's how we leave, 
absolutely, not when we leave.
    Senator Graham. It's how we leave and what we leave behind. 
You're here to tell us as the commander of our forces in 
Afghanistan, if we're smart and we do this right, conditions-
based withdrawal, we can leave behind a stable country that can 
help defend the American Homeland, or, we can leave behind a 
disaster that will haunt us for decades?
    General Dunford. I believe that, Senator.
    Senator Graham. Thank you.
    Chairman Levin. Thank you very much, Senator Graham.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    Thank you, General, for being here today. I want to talk a 
little bit--I know I sound sometimes like a one-note chorus 
here--about the Special Inspector General for Afghanistan 
Reconstruction (SIGAR), reconstruction efforts, and 
accountability for that money. What I'm really concerned about 
in the coming months is that the SIGAR, Mr. John F. Sopko, has 
indicated to you that no more than 21 percent of Afghanistan 
will be accessible to civilian oversight going forward.
    Now, that's a 47 percent reduction since 2009. So we had 
eyes and ears on the majority of Afghanistan during a time 
period that hundreds and hundreds, and, in fact, billions of 
dollars of American taxpayers' money was being spent to build 
things. We're only going to have eyes and ears in 21 percent of 
the country right now. Do you agree with that assessment, that 
our ability to oversee any kind of ongoing work is going to be 
severely curtailed and limited under the current scenario?
    General Dunford. Senator, I may be able to make you feel a 
little bit better about that. I'll speak from the DOD 
perspective. We'll have 32 projects ongoing in 2015. All but 
five of those projects will fall in areas where we will be able 
to provide proper oversight. Five projects will fall outside of 
that range, and what we're working with the Department of State 
(DOS) now is to ensure that we have Afghans that can help us 
provide oversight and ensure that we provide the kind of 
stewardship that I know you're addressing.
    Senator McCaskill. I haven't seen, none of us have seen, 
the Overseas Contingency Operations (OCO) funding. Of those 31 
projects that you're going to be working on in 2015, is there 
going to be any more money requested for any of that work in 
this coming OCO budget?
    General Dunford. Senator, it will be in 2015. Some of that 
is 2015 money. So, yes, part of those projects would be there. 
The projects in total are somewhere between $600 and $700 
million. These are the last 32 projects that were part of the 
original program of record for Afghan Forces. So when I talk 
about projects, they're virtually all either Afghan National 
Police or Afghan National Army projects that are again the back 
side of the program of record that was outlined a couple of 
years ago.
    Senator McCaskill. So there have been no new projects 
started this calendar year?
    General Dunford. Senator, there are no projects now that 
we're starting that aren't part of the program of record, 
that's absolutely true. No new starts.
    Senator McCaskill. Okay. Before I move on to another area, 
quickly, I think it's really important that we get a clear-eyed 
assessment of how well this works. There has just been an 
assumption from day one, and I have great respect for General 
Petraeus's guide for counterinsurgency effort, but I'm not 
aware that there has ever been any data or analysis that has 
really said that the military getting involved in large-scale 
infrastructure projects works in terms of the 
counterinsurgency.
    It may have helped along the margins in Iraq, but most of 
that money was wasted, because most of those projects are not 
operating now. The health care centers never opened. The water 
park is in crumbles. A lot of the grid was blown up during the 
process. This notion of building major infrastructure during a 
conflict and the security challenges we have--and we know some 
of our money went to the bad guys for guarding that one highway 
we were building, and the whole blurring of the lines between 
DOS and DOD as to whose job this is and when and how--I really 
think we need to do a clear-eyed assessment, now that we have 
both Iraq and Afghanistan to look at.
    If you read the Special Inspector General for Iraq final 
report, there's some real work to do here, I think, on the part 
of the military. I want to know, is there some discussion about 
that, that there will be a reevaluation of the effectiveness of 
this strategy?
    General Dunford. Senator, there is, and I did hear General 
Dempsey's comments the other day and I'd associate myself with 
those. I think at the end of a decade of war it's fair to say 
that it's very important that we go back and take a look at the 
lessons learned and make sure we document those now while 
they're fresh.
    Senator McCaskill. We have some problems with property 
accountability in Afghanistan. We know that we have 26 open 
investigations for missing property that include weapons and 
weapons systems with a total of almost $590 million, that the 
Inspector General (IG) has found all these problems over there 
in the two places where we're trying to retrofit and account 
for all the equipment. Do you feel like you've gotten a handle 
on that?
    General Dunford. Senator, I do. We have spent the last 
year, and frankly even before I arrived, trying to ensure that. 
Again, this is part of lessons learned from even the Iraq 
experience. As we conducted a retrograde and redeployment in 
Iraq, I think we learned a lot of lessons, and I believe we're 
applying those lessons learned now in Afghanistan as we get 
accountability in the retrograde and redeployment process.
    Senator McCaskill. I'll have some specific questions for 
the record about what has changed since the IG took a look. 
It's a little worrisome to me since I've been at the yards that 
did the same thing in Iraq and I thought we had really turned 
the corner on that. I'm disappointed that the IG would find 
these kinds of problems after what we did learn in Iraq. So 
I'll follow up on that.
    Finally, I just want to mention detainees. I understand the 
Afghan Government released individuals with ties to attacks to 
coalition forces. Does the BSA enable our forces to continue to 
detain and remove dangerous individuals from the battlefield 
should the United States keep an enduring presence in 
Afghanistan? It's very troubling to me they released those 
people, and I think it's something that we should all be very 
worried about. I want you to tell me you are comfortable that 
if you catch people that are trying to kill our men and women 
in battle that we can keep them captured and that the 
Afghanistan Government does not have the ability to let them 
go.
    General Dunford. Senator, first, I share your concern with 
that. Clearly, protecting the force is my responsibility and I 
take that very seriously. I was greatly concerned with the 
release of those 65 individuals. I would say that the viability 
of our presence post-2014 is going to be determined by a number 
of factors, one of which will be an effective regime to address 
detainees, not only to ensure that those individuals that are a 
threat to the force and to the Afghan people are kept off the 
battlefield, but also that we would have access to the 
intelligence associated with those individuals in order to 
again protect the force and conduct effective counterterrorism 
operations.
    So within the new administration, I think that's something 
that has to be arranged and it has to be very much a part of 
the BSA and the other arrangements that we have with the next 
government.
    Senator McCaskill. But we don't have it now?
    General Dunford. We have an arrangement, Senator, but the 
Government of Afghanistan did not observe that agreement.
    Senator McCaskill [presiding]. Very disappointing. Thank 
you.
    Senator Levin had to leave and I am going to now defer to 
Senator Donnelly.
    Senator Donnelly. Thank you, Madam Chair.
    General, first I want to thank you for everything you've 
done there. It's been an extraordinary tour of duty. You've 
done amazing work. As I mentioned to you once before, I have 
family members who have a history with St. Michael's and 
everybody there is extremely proud of you and everything you've 
done.
    I want to mention in regards to the MRAP vehicles. I served 
in the House for a little bit too, and when we were coming and 
creating MRAP vehicles and trying to get those in the field as 
fast as we could, we weren't worried about whether or not we 
were going to be able to get them home or what ship they were 
going to come home on or whether all the dirt was going to be 
cleaned out from under the tires. We were worried about saving 
lives. That was the whole purpose of the MRAP vehicles.
    I think if you had talked to anybody in the House or in the 
Senate at that time, if you had said, ``Look, we can get these, 
but do you want to worry about how they come home?''--we 
obviously want to get them all taken care of, but that in a 
list of about 100 things was about 101--I think number one was 
telling families in Indiana, Ohio, Wisconsin, and New York that 
their sons or daughters would be in the safest vehicles 
possible and that they could come home safely.
    So I just want to tell you that my opinion is get them back 
if you can, but the most important job they have had to do 
they've been doing.
    I want to ask you about improvised explosive devices (IED) 
a little bit, General, and the progress we're making in that 
area. I know there's been testing on fertilizers as well. We're 
trying to come up with a formula that is non-explosive. I 
wanted to hear how things are going in regards to fertilizer-
based IEDs and what are the biggest IED challenges you have 
right now and how we're doing overall in that area.
    General Dunford. Senator, thanks for that question. We've 
worked very closely with Pakistan. Particularly the Joint IED 
Defeat Office (JIEDDO) has done a lot of great work over the 
past year. Because of that existential threat to Pakistan that 
I mentioned earlier, the Pakistanis are very focused on the IED 
challenge, as are the Afghans. So we've had a number of 
sessions with them and there is cooperation with the producers 
of----
    Senator Donnelly. I think you know one of the real bright 
things that we see is the cooperation on this and that we're 
actually going to do testing here in the States as well.
    General Dunford. Absolutely, Senator. The efforts that 
certainly the committee and again JIEDDO have done have 
actually paid dividends.
    The greatest IED challenge today, of course, is to Afghan 
Forces. They have increasingly borne the brunt of that, 
including Afghan civilians. In our focus, I feel comfortable 
with the equipment that we have, the training we have for our 
forces. Our focus on IED's now is equally to make sure that the 
ANSF are capable of dealing with that challenge, and a lot of 
the equipment that we bought over the last 2 or 3 years now is 
finally arriving, finally being integrated, and their 
capabilities are improving.
    But I think the real bright spot and the potential for 
improvement here in the coming months is that cooperation 
between the Government of Pakistan, the Government of 
Afghanistan, and the tripartite arrangement that we have to 
work on this particular issue.
    Senator Donnelly. How are we doing in terms of catching the 
threat before it happens, being able to protect our vehicles on 
the roads? We are way up from where we were, aren't we?
    General Dunford. We've made significant improvement, 
Senator. But this is one of those force protection issues that 
I'd never appear before the committee and tell you that I'm 
comfortable with where we are.
    Senator Donnelly. Oh, no, not until they're all gone.
    What is the material of choice now that the terrorists are 
using?
    General Dunford. We still see ammonium nitrate. Probably 
60, 80 percent of the IEDs contain some type of homemade 
explosives.
    Senator Donnelly. Thanks for your effort on that. That 
obviously has torn families and units apart. Like you said, we 
will not be satisfied until there are no more. We appreciate 
everything you've done.
    In areas like Kunar, Nuristan, and in other parts, what 
happens even if our forces remain behind, which obviously we 
hope we get a BSA? But what do those areas look like post-2014?
    General Dunford. There is still safe haven for al Qaeda in 
that region and, frankly, a complex arrangement of extremist 
organizations--al Qaeda, TTP, Afghan Taliban, Islamic Movement 
of Uzbekistan. The list goes on of individuals that use that 
area. We have largely, again, kept them from planning and 
conducting attacks from that area, and they largely are focused 
on survival.
    They expect that we will leave at the end of 2014 and they 
expect that after we leave they'll have the opportunity to once 
again expand their safe haven in the region. My expectation is 
that, again, as we grow a partnership with the ANSF and we grow 
their counterterrorism capability, that a combination of our 
train, advise, assist, and counterterrorism capability, 
combined with the ever-increasing counterterrorism capability 
of the Afghans, will ensure that those individuals again focus 
more on their own survival than they do on attacks against 
either the Afghan people or against us.
    Senator Donnelly. After December 2014, for U.S. Agency for 
International Development (USAID) and provincial reconstruction 
teams (PRT), will they have the ability to still be able to go 
out and put forward efforts, put forward projects and programs 
and be in a situation where they will feel safe or secure?
    General Dunford. Senator, there won't be any PRTs in 2015. 
USAID right now is with the embassy as a whole and we're 
certainly participating in discussions on this. I think largely 
their project oversight will be conducted by Afghans, except 
where it happens to fall in, within what we call our 
operational reach. In other words, where our forces are and 
there's a casualty evacuation capability and a quick reaction 
force capability, we'll certainly be able to support USAID and 
other DOS employees. But in those areas where we don't have 
that kind of coverage, my expectation is that we will not have 
DOS employees and USAID.
    Senator Donnelly. It would not seem that without that they 
could be in an environment where they're going to be safe at 
all?
    General Dunford. Absolutely, Senator.
    Senator Donnelly. I just want to thank you again. You've 
done an extraordinary job under very difficult circumstances 
and the Nation owes a huge debt of gratitude to you.
    General Dunford. Thank you, Senator.
    Senator Donnelly. Thank you.
    Senator Inhofe. Madam Chairman.
    Senator McCaskill. Senator Inhofe.
    Senator Inhofe. Thank you very much.
    I have seen some disturbing things, General, that I am 
concerned about, having to do with the inspector, SIGAR. At the 
end of January, your staff was accused of preempting and 
undermining audit reports of SIGAR after a series of audits.
    Now, let me ask you maybe three questions here. How do the 
SIGAR personnel get to audit locations, such as construction 
sites in southern Afghanistan, and how do they get access to 
the data that they need for the military organizations and the 
Afghan ministries?
    General Dunford. Senator, we provide that support.
    Senator Inhofe. One of the statements that I recall was 
SIGAR has said--and this is a quote--``No more than 21 percent 
of Afghanistan will be accessible to U.S. civilian oversight 
personnel by the end of 2014.'' Do you think that's true and 
how important is that to their mission and to yours? I don't 
think it's true. What do you think?
    General Dunford. Senator, I think it's important. What the 
SIGAR really is referring to there, I assume, is that 21 
percent of the country will be covered by U.S. Forces footprint 
or coalition forces footprint. That's true because we're 
reducing the force so much. But I also think that percentage is 
actually irrelevant, because what's most important is what's 
the coverage of those areas where there are actually projects 
ongoing.
    There's only going to be 32 projects from a DOD perspective 
in 2015, and all but five of those projects will actually fall 
within our ability to provide proper oversight with U.S. 
Forces.
    Senator Inhofe. Okay, then it's not correct.
    General Dunford. That's right, Senator.
    Senator Inhofe. All right. I read a lot of these things and 
it appears to me--and I don't know that this is true--that they 
go in there, they find out things, they go to the newspapers. 
You see a lot of headlines in very high-profile media outlets. 
As the commander charged with making the military campaign in 
Afghanistan successful, what do you consider the most important 
role as it's supposed to be of SIGAR, and have they been 
focused on that role?
    General Dunford. Senator, I welcome SIGAR and any other 
organization. In fact, during my time at U.S. Forces 
Afghanistan I've requested inspectors to come over to look at 
projects. I think, first of all, we take stewardship very 
seriously. I realize I have a responsibility to American 
taxpayers to make sure that every dollar that's spent in 
Afghanistan results in capability development and advancement 
of our interests. So we take that seriously.
    What I'm most interested in is the investigator's ability 
to tell me how I can save U.S. Government money, what decisions 
I'm making in the future, as opposed to what might have 
happened in terms of lessons learned. I'm not dismissing 
lessons learned. Those will be important to some future 
conflict. But for me today as a commander, I'm much more 
interested in the decisions I'm making today and the decisions 
I'll make tomorrow to make sure those are good decisions and 
make sure they reflect good stewardship. That's where I think 
the investigators can help me the most.
    Senator Inhofe. Some of the headlines I'm referring to, I'm 
sure you're aware of them. Do you think they're all accurate?
    General Dunford. Senator, I think that in many cases 
they're sensationalized.
    Senator Inhofe. Yes, I think they are, too. Does that make 
your job easier?
    General Dunford. Senator, it makes it more difficult. We're 
in the 21st century, the information age, and I think the 
narrative is very important. If there's a narrative of 
pessimism, if there's a narrative of abuse, if there's a 
narrative that we're not good stewards, I think that affects 
our mission.
    Senator Inhofe. I appreciate it and I agree.
    Let me say one thing. I identify with the remarks that 
Senator Graham made about the chairman. In fact, I tried to say 
that in my opening statement, but not nearly as eloquently as 
Senator Graham did.
    Thanks for your great work.
    Senator Graham is recognized.
    Senator Graham. Thank you. Thank you, sir.
    Detainees. I really appreciate the stand you took against 
the 65 detainees being released by President Karzai. We have a 
resolution in Congress condemning that action. Do you believe 
it would be helpful for Congress to send a signal that we 
object to what President Karzai did?
    General Dunford. I do, Senator, and I'd like to thank you 
for what you've been doing over the last several weeks to 
ensure we sent a very clear message to the Afghan Government.
    Senator Graham. Let the Afghans know that economic aid will 
be cut off if they continue this.
    Could you send the committee a report on the status of 
detainees--give our guys in the Combined Joint Interagency Task 
Force (CJIATF) 435 something to do. I'm sure they're bored out 
there. I wanted to just shout out to the CJIATF 435. Thank you 
for all the hard work out there. A report on the status of 
detainees, third country nationals. Give the committee some 
indication of the problems we face between now and July with 
detainees, so we can make informed decisions to help you. Could 
you do that?
    General Dunford. Absolutely, Senator.
    [The information referred to follows:]

                              introduction
    Combined Joint Interagency Task Force (CJIATF) 435 has developed a 
strong collaborative relationship with our highly capable partners in 
the Afghan National Army Military Police Guard Command (MPGC), the 
National Directorate of Security (NDS), the Attorney General's Office, 
and members of the court at the Justice Center in Parwan (JCIP). As an 
integrated justice center, the Government of the Islamic Republic of 
Afghanistan (GIRoA) entities demonstrates the ability to conduct pre-
trial confinement, law enforcement investigation, criminal prosecution 
and post-trial incarceration in accordance with Afghan law and to 
international standards. Though the MPGC still experience challenges in 
sustainment and some administrative processes, the institutional 
culture and tactical performance is strong and enduring. Additionally, 
the JCIP, a secure and reputable court co-located with the Parwan 
detention facility, will soon exhaust its case load of former U.S. 
captures, but has begun processing Afghan detainees captured through 
primarily partnered operations. Continuing logistics and mentoring 
support is essential to mature this important counter-terror court.
    Unfortunately, the effectiveness of this partnership has been 
hampered since July 2013 by the troubling behavior of a small number of 
Afghan political leaders empowered by the GIRoA presidential 
administration. This behavior has resulted in the release of high risk 
detainees, restrictions to investigative processes, initiation of 
facility transition plans that could precipitate the closure of the 
Afghan National Detention Facility-Parwan (ANDF-P), and the attempted 
barring of new intakes of Afghan detainees subject to Afghan rule of 
law at the ANDF-P. Most recently, a President-ordered commission 
investigating foreign-operated detention facilities also needlessly 
complicated relations between GIRoA and its allies. These actions call 
into question the commitment of certain Afghan leaders to our enduring 
partnership, and are detrimental to the security of Afghanistan, the 
United States, and coalition forces.
    This period of the campaign can be characterized by our attempts to 
preserve reconciliation space with the future Afghan administration, to 
maximize the opportunity to establish an enduring National Security 
Justice Center at Parwan. Despite the aforementioned political 
friction, the Afghans have made steady progress in managing detainees 
since the transfer of detention operations to their authority, to 
include the intake, investigation, and prosecution of detainees. CJIATF 
435 provides continued assistance to GIRoA for facility operations, 
security, sustainment planning, and full-spectrum prosecution and 
judicial support in order to maintain acceptable standards of secure 
and humane treatment of detainees and prevent extra judicial killings 
or gross violations of human rights.
    CJIATF 435 currently conducts Law of Armed Conflict (LOAC) 
detention of approximately 50 Third Country National (TCN) detainees at 
the U.S.-controlled portion of the ANDF-P. We should determine and act 
on the final disposition of all TCN detainees by 31 July 2014 in order 
to meet retrograde timelines and complete disposition instructions 
prior to the expiration of detention authorities on 31 December 2014.
    The response that follows addresses current challenges associated 
with the Afghan Review Board's (ARB) extra-judicial releases of 
dangerous detainees, the announced transfer of the ANDF-P from Ministry 
of Defense to Ministry of Interior control, the advantages and 
requirements associated with preserving the JCIP to act as a Central 
National Security Court, and the need to rapidly determine the 
disposition of TCN detainees.
   afghan review board extra-judicial release of dangerous detainees
    A Memorandum of Understanding (MoU) signed on 25 March 2013 between 
the United States and GIRoA established the ARB, a committee designed 
to transfer detainees from LOAC detention authority to the Afghan 
constitutional authority, and formalized GIRoA's commitment to 
continued internment of those detainees designated as Enduring Security 
Threats (EST). ESTs are defined as detainees assessed to have both the 
capability and commitment to pose a severe and enduring threat to the 
security of Afghanistan and coalition members, whether inside or 
outside of Afghanistan. GIRoA Presidential Decree #5 appointed the 
three ARB members (one of which did not participate). In total, between 
June 2013 and February 2014, the United States transferred 890 detainee 
files to the ARB, but to date the panel has used its discretion to 
order the release of 678 detainees without referral to prosecution and 
judicial review.
    Many of these release decisions were made despite strong 
incriminating evidence against the detainees, showing the earliest 
indicators of the political, rather than security-focused nature of the 
panel. CJIATF 435 disputed 93 release decisions and conducted several 
key leader engagements with the ARB leadership and other justice sector 
leaders. When it became evident that the ARB would only change their 
decisions in 5 of the 93 disputed releases, CJIATF 435 recommended that 
the Commander of International Security Assistance Force (COMISAF) 
exercise the final option provided in the 25 March 2013 MoU, a 
bilateral exchange of information and views with the Minister of 
Defense. After COMISAF's engagement with the Minister of Defense, GIRoA 
forwarded all 88 remaining disputed files to the Attorney General for a 
senior level review, resulting in 65 releases and 23 referrals to 
prosecution in February 2014. We believe some of these released 
individuals have returned to the fight. With no legal consequences, 
future released detainees will continue to fill the ranks of the 
insurgency.
    These disputed releases and the clear political influence under 
which the ARB operated fundamentally altered our relationship with a 
small number of Afghan National Army leaders. It did not, however, 
damage our strong and growing partnership with most of our Afghan MPGC 
and Justice sector partners.
    On 23 February 2014, the President of Afghanistan issued a decree 
nullifying existing agreements with the United States regarding 
detainees. While the decree announced that the ARB would conclude after 
reviewing 58 remaining files, it did not address the Afghan commitment 
to continued internment of ESTs. Of the 58 remaining files, 41 are 
ESTs. CJIATF 435 will dispute the release of any EST, but holds little 
leverage or influence over the ARB and the current administration if 
they remain committed to using detainee disposition as a political 
tool. Based on the current political state, and passage of time since 
the 65 releases, we believe GIRoA could initiate release of a 
significant portion of the remaining 58 ARB detainees.
  transfer of andf-p from the ministry of defense to the ministry of 
                                interior
    The 23 February 2014 President of Afghanistan Decree also announced 
the transfer of the ``Ministry of Defense (MoD) detention facility at 
Bagram,'' the ANDF-P, to the Ministry of Interior (MoI). The 
presidential announcement appears to have caused hedging behavior by 
both MoD and MoI, as MoD sought to keep the MPGC within MoD, and only 
transfer the facilities (i.e., ANDF-P and the ANDF at Pol e Charkhi), 
and MoI has sought to take the facilities, personnel and resources. 
This impasse between ministries could potentially result in an inactive 
facility, jeopardizing both our ability to transfer captures resulting 
from partnered or counter-terrorism-related operations, and GIRoA's use 
of the JCIP.
    Despite the continuing uncertainty regarding the timing of the 
transfer, CJIATF 435 is poised to partner with either Ministry to 
facilitate the eventual transition, and ensure the continued confidence 
in the ability of the Afghans to detain the most dangerous security 
threats to GIRoA and coalition forces, while ensuring humane care, 
custody and control of all detainees in accordance with International 
Laws. No matter which Ministry conducts the pre-trial confinement and 
post-trial incarceration, NDS stands ready to conduct investigations 
and the Attorney General's Office to conduct prosecution at the JCIP.
             april 2014 detention facilities investigation
    On 19 April 2014, the GIRoA President ordered a probe regarding the 
alleged presence of prisons run by foreign soldiers at the Kandahar 
International Airport. The high-level commission included the two 
members of the ARB, and was led by the Commander of the MoD Detention 
Operations Command. A week later, the commission claimed to the media 
to have uncovered secret prisons on two coalition bases. In truth, 
every facility that the United States uses for detention is well known 
not only by GIRoA, but also by the International Committee of the Red 
Cross.
    We believe the Presidential order and the commission's findings are 
aimed at creating a public perception that the United States and United 
Kingdom operate illegal and secret detention facilities, consistent 
with the long running theme of Afghan sovereignty.
          preserving progress at the justice center in parwan
    Separately, but integral to the Rule of Law, the Afghans continue 
to make considerable progress at the JCIP. The JCIP, an Afghan court 
with Afghan judges, prosecutors, defense counsel, and investigators has 
tried more than 6,500 cases with a 74 percent conviction rate as of 
April 2014. The JCIP operates inside a secure facility free from the 
security concerns of many provincial courts. CJIATF 435 and Department 
of State (Bureau of International Narcotics and Law Enforcement 
Affairs) continue to provide prosecutor mentorship and document lessons 
learned to encourage and support the use of evidence-based operations 
and prosecutions throughout Afghanistan.
    CJIATF 435 leadership strongly recommends that the strength and 
synergy of the MPGC confinement capabilities, NDS investigative 
capabilities, and prosecutorial & adjudicatory capabilities of the JCIP 
must be preserved in order to serve as an enduring National Security 
Justice Center. Many senior Afghan MoD, NDS, Attorney General's Office 
(AGO), and judicial officials have expressed a significant desire to 
continue the operation of both the JCIP and ANDF-P beyond the ISAF 
mission, ensuring the proper pre-trial confinement, investigation, and 
prosecution and post-trial incarceration of individuals who commit 
terror and insurgency-related crimes.
    The current JCIP jurisdiction includes former U.S. LOAC cases, and 
has been expanded to include new captures. This approach gives 
Afghanistan the ability to effectively prosecute and dismantle terror 
networks, which will improve regional security. When the United States 
loses its detention authorities at the end of 2014, a centralized 
facility where the most dangerous individuals are detained, 
investigated, and prosecuted remains the most efficient means by which 
to track, access, and prosecute individuals captured in partnered or 
counterterrorism related operations. CJIATF 435 has already resourced a 
multi-disciplined and functional team that will provide continued 
mentoring to the ANDF-P and JCIP into the Resolute Support Mission.
    An Afghan-led Training Team session at the JCIP in April 2014 
exemplifies JCIP's enhancing the legitimacy of Afghan Rule of Law. This 
training enables GIRoA to export excellence from its operations at the 
JCIP to the rest of Afghanistan. Several key Afghan Justice Actors 
participated including the Director of NDS Department 40, the Chief 
Administrator of the Afghan Supreme Court, the, Chief Primary and 
Appellate Judges of the JCIP, and the JCIP Chief Prosecutor. Also over 
24 students from NDS, MoI and the Attorney General's Office 
participated. This training will surely improve Provincial Rule of Law 
efforts.
    The Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs is withdrawing personnel in direct support to the 
JCIP over the course of the summer, but intends to fund JCIP 
sustainment cost through the remainder of 2014. Continued U.S. support 
and funding beyond 2014 is essential for preserving and nurturing a 
robust Central National Security Court.
   disposition of third county national detainees under u.s. control
    CJIATF 435 has custody of approximately 50 Third Country Nationals 
(TCN) from over 10 countries at the U.S.-controlled portion of the 
ANDF-P. CJIATF 435 is working vigorously with Office of the Secretary 
of Defense and Department of State to resolve the lawful disposition of 
these TCN cases by 31 July 2014. CJIATF 435, responsible for 
coordinating and conducting TCN movement, transfer, and repatriation 
missions, is scheduled to conclude its mission on or about 1 October 
2014, and the detainee guard force will depart Afghanistan in early 
December 2014. Additionally, U.S. authority to detain individuals in 
Afghanistan under LOAC expires at the end of 2014, eliminating any 
flexibility in shifting disposition deadlines.
                               conclusion
    Despite political pressure to close detainee facilities, the United 
States' and Afghanistan's best interests are served by keeping the JCIP 
and ANDF-P functioning through 2015 and beyond. CJIATF 435 continues to 
focus on long term solutions to improve the Afghan ability to operate 
according to the Rule of Law, with a goal of Afghan self-sustainability 
by 2016. The centerpiece of this effort is an enduring and robust 
National Security Justice Center at Parwan capable of pre-trial 
confinement, investigation, prosecution, and post-trial incarceration 
of National Security Threats.
    There are also critical short-term issues that must be addressed, 
including the continued detention of ESTs and the rather urgent need to 
obtain dispositions for the remaining TCN detainees. In light of the 
key detention and Rule of Law issues outlined above, Congress can 
greatly assist with both security and justice in Afghanistan by: (1) 
providing sufficient funding and support for the JCIP in order to 
bolster Afghan security and public confidence in the Afghan judicial 
system; (2) clearly communicating its desires regarding the proper 
disposition of ESTs; and (3) providing timely review and approval of 
TCN dispositions.

    Senator Graham. Finally, as to the war itself. This is an 
ideological struggle, do you agree? There's no nation state to 
conquer. When it comes to radical Islam, there's no capital to 
conquer, there's no air force to shoot down, there's no navy to 
sink. We're in an ideological battle with radical Islamists, 
right?
    General Dunford. I agree with that, Senator.
    Senator Graham. When I say ``we,'' it's most of the Muslim 
world. It's not just us. Most of the Muslim world is in a 
battle with these guys.
    General Dunford. Our coalition partners as well.
    Senator Graham. Absolutely. So what you're trying to tell 
us is that the best way to keep this war away from our Homeland 
is to have lines of defense throughout the world. These lines 
of defense would be places like Afghanistan that had a stable 
government, stable, improving economy, and security forces 
willing to fight the radicals. That's part of America's defense 
strategy, do you agree with that?
    General Dunford. I do, Senator. Terrorists thrive in 
ungoverned spaces and that's what we're trying to do in 
Afghanistan, is ensure it's not an ungoverned space.
    Senator Graham. So I don't know when the war will end. 
Radical extremist movements are marginalized over time, would 
you agree, by better education, better economic opportunity in 
the areas they operate? The biggest blow really to the Taliban 
and al Qaeda is girls going to school.
    General Dunford. I agree with that, Senator.
    Senator Graham. People making their own choices. I know 
that's complicated and frustrating for us, but if we will 
invest in the people who are willing to fight the terrorists 
along our side, in their back yard, I think we would be smart.
    Now, Afghanistan under Taliban control and 30 years of 
previous civil war was a devastated nation, is that fair to 
say?
    General Dunford. It is fair to say.
    Senator Graham. What happened in 2001, a year later when we 
cleaned out the place, was a devastated society, absolutely no 
infrastructure.
    General Dunford. That's correct, Senator.
    Senator Graham. I remember going to Kabul and there were 
just a very few lights. You go today, it's almost like Myrtle 
Beach. I like Myrtle Beach. It's a very vibrant place.
    Lots of challenges, but there's two ways to look at 
Afghanistan, where we started and where we are today. Would you 
agree with me, in many ways it's amazing they've come as far as 
they have?
    General Dunford. Senator, I absolutely believe that. I 
think if just a few years ago we would have described 
Afghanistan in 2014, I think very few people would have 
believed we would be where we are today.
    Senator Graham. I would be among those few.
    Now, there's two ways to look at this, what they haven't 
done and how far they've come and what they're capable of 
doing. I believe the capability of the Afghan people is fairly 
unlimited when it comes to reforming Afghanistan. It's just 
going to take time. Do you agree with that proposition?
    General Dunford. I do. Given the opportunity, Senator, I've 
seen them accomplish an extraordinary amount in a short time.
    Senator Graham. The key ingredient here is will and desire.
    General Dunford. This is a clash of wills, there's no 
question.
    Senator Graham. The Afghan people have the will and desire 
to move out of the darkness into the light; is that a fair 
statement?
    General Dunford. Absolutely, Senator. It reflects in the 
popularity rate of the Taliban, where they probably get 
somewhere between 11 and 15 percent at the highest in terms of 
the numbers of Afghan people who actually support the Taliban 
ideology.
    Senator Graham. How does al Qaeda poll?
    General Dunford. We don't have an al Qaeda poll, Senator, 
but I suspect it would be much lower.
    Senator Graham. Probably like some percentage below that, 
yes.
    So the bottom line here is that the ace in the hole for 
America is that most people in Afghanistan do not want to go 
back to the dark days of the Taliban. They want to go forward. 
They want a different world. It won't be like America. This is 
not Jeffersonian democracy. But it can be representative 
government. They can be a good ally. Don't you believe that?
    General Dunford. I believe that, Senator.
    Senator Graham. So from the American people's point of 
view, I hope you understand that we're trying to build defenses 
abroad and let armies abroad do the fighting with minimal help 
from us, to keep the enemy at bay from attacking us, because 
the goal of al Qaeda is not just to control Afghanistan, it's 
to drive us out of the region, right?
    General Dunford. That's exactly the plan for transition.
    Senator Graham. To drive us out of the region and leave 
that part of the world in their hands, and the economic chaos 
that that would create would be unimaginable. Do you agree with 
that?
    General Dunford. I do, Senator.
    Senator Graham. From an economic perspective, the United 
States has a great interest in making sure that that part of 
the world is stable.
    General Dunford. I think if you look at the cost of 
September 11, you can make that argument very easily.
    Senator Graham. Would you also agree that if you're wanting 
to deter the Iranians from acquiring a nuclear capability, if 
we abandon Afghanistan, that's the worst possible signal you 
could send to the Iranians about our resolve regarding national 
security matters?
    General Dunford. I think it would have a destabilizing 
effect on the region.
    Senator Graham. The Iranians would be one of the biggest 
winners of an unstable Afghanistan.
    General Dunford. I believe so, Senator.
    Senator Graham. Thank you and all of those under your 
command for extraordinary service. You've done a great job. 
We're inside the 10-yard line; do you believe that?
    General Dunford. We are in the red zone, Senator.
    Senator Graham. We're in the red zone and we can score if 
we don't call the wrong play.
    General Dunford. Thank you, Senator.
    Senator Graham. Thank you.
    Senator Levin will be back shortly, so we will stand down 
until he gets back.
    [Recess from 10:48 a.m. to 10:54 a.m.]
    Chairman Levin. General, thank you for your patience here. 
I'm not sure that any of my colleagues are coming back. I just 
have a couple of additional questions for you. I hope that if 
the staffs are aware of any Senators that are coming back they 
would let us know. I don't think there are, in which case we 
could end fairly promptly.
    I talked to you in my office about a couple of incidents 
that occurred fairly recently during military operations. I 
think it's important when these incidents happen, some of which 
are truly tragic, that there be a prompt response on the part 
of our military.
    The first is that radio station raid in Logar Province. 
Allegedly, our SOF scaled the walls of a compound, seized the 
owner of a radio station, and then beat and threatened him 
during an interrogation. What can you tell us about that raid?
    General Dunford. Senator, that raid is under investigation. 
I actually would prefer not to talk about it publicly now, but 
could in private. I reviewed the draft report of the 
investigation last night, actually after we spoke. I got the 
initial results from the commander, our SOF commander. I think 
some time in the next couple of days we'll have the facts out.
    Chairman Levin. That was on the radio station?
    General Dunford. That's on the radio station.
    Chairman Levin. Now, there was also a friendly fire 
incident in eastern Afghanistan where it was reported that a 
NATO air strike resulted in the friendly fire deaths of five 
Afghan army soldiers, I think also in Logar Province. Can you 
tell us about that incident?
    General Dunford. Senator, that was clearly an incident of 
what we call blue on green. It was our aviation capability and 
there were Afghan soldiers that were unfortunately killed. 
Again, the investigation is just about complete, so I can't 
speak publicly about that. We'll have the facts here in a 
couple of days, but in all honesty, Senator, something happened 
that should not have happened.
    Chairman Levin. We've been working with the Afghans on that 
to try to remedy the losses to the extent that we can?
    General Dunford. Very closely working with the Afghan 
leadership, to both investigate and also to take care of the 
families of the fallen.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. General, I had a chance to chat with a 
number of my colleagues running back and forth to vote and they 
unanimously, everyone that I spoke to, react the way I do to 
your service and your testimony. Most importantly, your 
testimony is compelling, your service is truly extraordinary 
over these decades. We all feel that way, and we just want to 
thank you. We want to thank your family. I know that we had a 
chance to spend a few minutes with your wife last night. We 
hope you also had an opportunity to spend a few minutes with 
your wife. In a few days, maybe you can find a few hours with 
your family, away from your huge challenges in Afghanistan. But 
we are deeply grateful to you and to all the men and women with 
whom you serve. Thank you.
    With that, we will stand adjourned.
    [Whereupon, at 10:59 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Jack Reed
                       u.s. forces in afghanistan
    1. Senator Reed. General Dunford, could you indicate if there is a 
Bilateral Security Agreement (BSA) concluded to the satisfaction of 
both sides, your estimate of how long the residual force will stay in 
Afghanistan?
    General Dunford. With the strategic partnership between the United 
States and Afghanistan reinforced with a BSA, I am confident the bulk 
of our residual force would return home by the end of 2016. This 
additional 2-year period will allow us to ensure our years of support 
are reinforced with a focused train, advise, and assist effort, as well 
as enhanced development of the Afghan Security Ministries. The BSA will 
demonstrate our mutual commitment and advance our efforts.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                        afghan literacy program
    2. Senator Nelson. General Dunford, in your estimation, how 
important is the Afghan Literacy Program (ALP) to the viability of the 
Afghan National Security Forces (ANSF), with or without U.S. presence 
in 2015?
    General Dunford. The ALP is fundamental to the professionalization 
of the ANSF. This program is requisite for the training and education 
system for targeted career paths, service progression, and 
professionalization within the Afghan National Army (ANA) and the 
Afghan National Police (ANP). As such, the ALP is fundamental to the 
long-term viability of the ANSF. As the ANA conduct advanced training 
on more complex tasks and equipment, a targeted literacy program will 
be essential for future professional development. Furthermore, literacy 
is the underpinning of the ANP's basic execution of rule of law. The 
ANP must be functionally literate to enforce the law, investigate 
crime, and report findings.
    The current ALP, funded by coalition forces, will conclude by the 
end of 2014, having trained most of the ANSF to Literacy Level 1, but 
no more than 20 percent to Level 3. In order to progress to future 
professional force with appropriate levels of literacy, institutional 
literacy training is essential for targeted specialties of incoming 
ANSF. Additionally, the ANSF require a Train-the-Trainer (T3) program, 
to develop an organic literacy training capability. An ongoing literacy 
program, led by the Afghans, is the key to enable the ANSF to be self-
sufficient and eventually become independent from foreign support for 
increasing and maintaining their literacy capabilities. Regardless of 
U.S. presence in 2015, the ALP is critical to the professionalization 
of the ANSF.

    3. Senator Nelson. General Dunford, if the BSA is signed, would you 
support dedicating additional resources to the oversight of the ALP?
    General Dunford. In December 2013, Afghan Barez HR Services Company 
was contracted by NATO Training Mission-Afghanistan (NTM-A) for the 
Literacy Oversight Inspection Activity to ensure the existing quality 
and quantity of ongoing ALP for the ANSF. The key inspection task of 
this oversight instrument is to monitor all literacy training programs 
at approximately 500 locations throughout Afghanistan. The oversight 
mission will also ensure that NTM-A's literacy programs are in 
compliance with the Afghan Ministry of Education (MoE) developed 
standards and literacy curriculum. Until now, this oversight contract 
and the onsite inspections of NTM-A's advisor teams have provided 
sufficient quality control for the current ALP. Shifting the focus to 
institutional literacy training from country-wide to centralized 
training at training centers will further improve oversight quality. 
Additionally, there is increased interest in providing ANSF tashkil 
positions for ANSF literacy instructors, increasing literacy site 
visits, and developing a literacy-level tracking system. As a result of 
the demonstrated progress and continued program management initiatives 
there is no need to dedicate additional resources to the oversight of 
the ANSF ALP.

    4. Senator Nelson. General Dunford, in its recent report to 
Congress, the Special Inspector General for Afghan Reconstruction cited 
an abuse of the system from an unidentified contractor who billed for 
``multiple classes at one site that could have been combined into one 
class.'' To the best of your knowledge, were these poor practices 
conducted by one, some, or all of the literacy contractors?
    General Dunford. The old literacy training contracts allowed OT 
Training Solutions, Inc., Insight Group, and Higher Education Institute 
of Karwan to bill for each class where instruction was provided rather 
than for the number of hours taught in each class. Additionally, the 
contracts did not clearly define a minimum class size. This lack of 
clarity in the tasks order allowed one contractor to bill for multiple 
classes held at the same location that logically could have been 
combined into a single class. The new contracts currently in place 
establish a minimum class size and include more strict oversight 
controls to safeguard available fiscal resources.

    5. Senator Nelson. General Dunford, can you provide recommendations 
for addressing these concerns in future contracts?
    General Dunford. Based on past experience and lessons learned, we 
have significantly revised the ongoing ANSF training provided in the 
literacy and language program by updating the task order awards under 
three current contracts, which are valid until the end of 2014. The new 
contracts are now of shorter terms, have a narrower spectrum of 
application, and include a more strict metrics framework. As an 
example, contractors are now paid a fixed amount for measurable 
performance and we established a 10 student minimum for class size in 
order for contractors to be paid. This has already resulted in 
substantial savings and higher confidence that the ANSF are receiving 
the literacy training that donor nations have paid for. Finally, we 
observed all applicable rules and regulations in the awarding of these 
latest contracts to include the conduct of background checks on the 
contractors.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                     no contracting with the enemy
    6. Senator Ayotte. General Dunford, last year you testified that it 
is critical to expand No Contracting with the Enemy authorities to the 
Department of State (DOS) and the U.S. Agency for International 
Development (USAID). Is that still your view?
    General Dunford. Yes.

    7. Senator Ayotte. General Dunford, why do you believe it is 
important that other Federal agencies, including DOS and USAID, are 
given No Contracting with the Enemy fiscal year 2012, section 841, 
authorities?
    General Dunford. Yes.

    8. Senator Ayotte. General Dunford, on March 6, General Austin 
testified that these authorities have been used to save taxpayers $31 
million and have prevented those funds from going to our enemies. Is 
that your understanding as well?
    General Dunford. Yes.

    9. Senator Ayotte. General Dunford, when was the last contract 
terminated in Afghanistan using these authorities?
    General Dunford. The last time we used section 841 authorities to 
terminate a contract in Afghanistan was January 2013. This was the last 
time that a contractor that was determined to meet the statutory 
criteria was involved in an active contract or bidding on a new 
contract supporting our operations. Since then, in addition to 
developing 841 actions, we have used our vendor vetting process to 
assess thousands of relevant contractors and their key personnel, and 
to preempt a specified subset of such contractors from being considered 
for contracts, fully consistent with the intent of section 841.

    10. Senator Ayotte. General Dunford, how many cases are pending?
    General Dunford. We have eight potential section 841 cases that we 
are currently conducting extensive research as part of the process.

    11. Senator Ayotte. General Dunford, how long have they been 
pending?
    General Dunford. The proposals have been in coordination for a 
range of 3 to 6 months. The variations, and the timeline itself, have 
been driven by intelligence updates and the recrafting of the 
coordination process (see answer to question 10 for more details).

                                  a-10
    12. Senator Ayotte. General Dunford, at the November 7, 2013, 
sequestration hearing before this committee, General Odierno said 
regarding the A-10 that, ``I believe it is the Department of Defense's 
best Close Air Support (CAS) platform.'' At the same hearing, he also 
said, ``Our soldiers are very confident in the system as it goes 
forward. It's a great CAS aircraft.'' How has the A-10 performed in 
Afghanistan?
    General Dunford. The A-10's performance in Afghanistan has been 
very effective.

    13. Senator Ayotte. General Dunford, the Air Force has said the A-
10 has a 1 to 2 minutes faster re-attack time than other aircraft. In a 
danger close situation in which American soldiers or marines are about 
to be overrun by the enemy, can 1 to 2 minutes be the difference 
between life and death?
    General Dunford. Yes.

    14. Senator Ayotte. General Dunford, is the A-10 particularly 
effective at performing some kinds of CAS missions in Afghanistan--such 
as missions involving danger close engagements, bad weather, rugged 
terrain, and moving targets?
    General Dunford. Yes.

    15. Senator Ayotte. General Dunford, from January 1, 2002, to 
January 1, 2014, in Afghanistan, how many mission reports have been 
filed by A-10s?
    General Dunford. Mission reports are collected by the Coalition 
Forces Air Component Commander, therefore this question would be best 
answered by U.S. Central Command (CENTCOM).

    16. Senator Ayotte. General Dunford, from January 1, 2002, to 
January 1, 2014, in Afghanistan, how many CAS employments with nine 
lines?
    General Dunford. The joint force air component database does not 
delineate CAS missions by nine-line provision. Additionally, the 
database only contains Operation Enduring Freedom (OEF) kinetic attack 
data since 2009. For Afghanistan CAS missions, a comparison of targets 
struck by kinetic munitions provides the best approximation of nine-
lines provided, though nine-lines are also provided for targets which 
are then addressed by non-kinetic means. Between January 1, 2009, and 
December 31, 2013, there were 7,599 kinetic events. For targets where 
kinetic munitions were employed, A-10s attacked 24 percent of these 
targets while other aircraft attacked 76 percent of these targets.

    17. Senator Ayotte. General Dunford, from January 1, 2002, to 
January 1, 2014, in Afghanistan, what percentage of the total number of 
CAS employments with nine lines did the A-10 carry out?
    General Dunford. The joint force air component database does not 
delineate CAS missions by nine-line provision. Additionally, the 
database only contains OEF kinetic attack data since 2009. For 
Afghanistan CAS missions, a comparison of targets struck by kinetic 
munitions provides the best approximation of nine-lines provided, 
though nine-lines are also provided for targets which are then 
addressed by non-kinetic means. For targets where kinetic munitions 
were employed, A-10s attacked 24 percent of these targets while other 
aircraft attacked 76 percent of these targets.

                    iranian activity in afghanistan
    18. Senator Ayotte. General Dunford, has Iran provided assistance, 
weapons, or training to insurgents in Afghanistan?
    General Dunford. Yes, we believe Iran provides measured assistance, 
weapons, and training to insurgents in Afghanistan, likely since at 
least 2002. Iran has historically backed Tajik and Shi'a groups opposed 
to the Afghan Taliban, but tensions and enmity with the West have 
driven Tehran to provide measured support to insurgents in Afghanistan. 
Over the years, coalition forces have seized several large weapons 
shipments near the Iranian border that were almost certainly of Iranian 
origin. Iran likely is also training insurgents inside Iranian 
territory. Iran calibrates the size and scope of the lethal aid it 
provides the insurgency, likely so the insurgents can target 
International Security Assistance Force (ISAF) and coalition forces 
more effectively.

    19. Senator Ayotte. General Dunford, what role is Iran playing now 
in Afghanistan?
    General Dunford. Iran likely is pursuing a multi-tiered strategy in 
Afghanistan. Iran is improving relations with the Government of the 
Islamic Republic of Afghanistan (GIRoA) while supporting the insurgency 
to hinder coalition efforts. Tehran's outreach to Kabul is centered on 
diplomacy and economic aid, in an attempt to minimize western presence 
and influence in Afghanistan. Iran's President Rouhani, who assumed 
office in August 2013, has used softer rhetoric than his predecessor to 
try and improve bilateral relations and outreach to Afghan Shia 
communities. In December 2013, Tehran and Kabul announced they will 
sign a bilateral ``Friendship and Cooperation'' pact to bolster 
security cooperation, trade, and cultural exchanges and further 
solidify their relationship. This agreement is still in negotiation.

    20. Senator Ayotte. General Dunford, what is Iran doing in western 
Afghanistan?
    General Dunford. Iran and Afghanistan have a long, shared history 
of cultural, linguistic, socio-economic, and religious ties. Tehran 
considers western Afghanistan, especially the city of Herat, as an 
integral part of Iranian territory within its natural sphere of 
influence. Iran is trying to develop better relations with GIRoA 
through the use of diplomacy and economic aid, likely in an attempt to 
minimize western presence and influence in western Afghanistan. Since 
2001, Iran has provided likely hundreds of millions of dollars to 
support Afghanistan's reconstruction and economic development, 
primarily in western Afghanistan and Herat Province, where Iran 
maintains a diplomatic consulate.

                            afghan detainees
    21. Senator Ayotte. General Dunford, on February 13, 2014, the 
Karzai Government released 65 detainees from the Afghan National 
Detention Facility at Parwan. Have some of these detainees resumed 
terrorist activities?
    General Dunford. While it is possible, at this time, we do not have 
any credible indications that any of the 65 detainees released from the 
Afghan National Detention Facility on February 13 resumed terrorist or 
insurgent activities.

    22. Senator Ayotte. General Dunford, I understand there are an 
additional 23 detainees of this type still being held by the Afghan 
Government at the Parwan facility. Do we know what the Afghan 
Government plans do with them?
    General Dunford. It is our understanding that the additional 23 
detainees have been referred for prosecution at the Justice Center in 
Parwan and are pending criminal trial.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                           post-2014 mission
    23. Senator Lee. General Dunford, is it correct to say our military 
leaders believe we need a residual force in Afghanistan because the 
Afghan Government and the ANSF are currently unable to defeat 
insurgents and maintain stability in the country without international 
assistance?
    General Dunford. The ANSF's improving capabilities in 2013 and the 
first quarter of 2014 were demonstrated in large and complex combat 
operations across the country. Due to existing capability gaps and 
developmental shortfalls, the ANSF relied on ISAF for enabler support, 
particularly in the areas of close air support, casualty evacuation, 
logistics, counter-improvised explosive device (IED), and intelligence, 
surveillance, and reconnaissance. On balance, after watching the ANSF 
respond to a variety of challenges over the past year, I do not believe 
the Taliban-led insurgency represents an existential threat to GIRoA or 
the ANSF. However, while the ANSF's performance shows they require less 
ISAF assistance in conducting security operations, they do need a great 
deal of help in developing sustainable systems, processes, and 
institutions necessary to run a modern, professional Ministry of 
Defense (MoD), Ministry of Interior (MoI), army, and police force. 
Absent that support, I believe the ANSF and security conditions will 
deteriorate.

    24. Senator Lee. General Dunford, would you characterize a post-
2014 mission in Afghanistan as one that is focused on stabilizing 
Afghanistan from internal and regional threats, or one where our forces 
are engaged against terror organizations that are plotting against the 
United States?
    General Dunford. Our objective for Afghanistan beyond 2014 remains 
developing a sustainable, inclusive, and increasingly stable political 
order committed to and capable of denying safe haven to al Qaeda. Our 
post-2014 mission will be focused on developing ANSF sustainability so 
they can deny sanctuary to terrorists in Afghanistan.

    25. Senator Lee. General Dunford, what strategic goals would a 
residual force be tasked with accomplishing?
    General Dunford. A residual force would be tasked with preventing 
the enemy from attacking the homeland and continue to build sustainable 
partnerships that would protect national interests from potential 
threats from the region. By investing in the stability of the Afghan 
Government and the ANSF, we create another layer of defense against 
those whom try to bring harm to the United States. The reductions in 
ungoverned spaces that exist limit the enemy's freedom of movement and 
action. A stable Afghanistan can contribute to the reduction of those 
spaces and contribute in the aggregate to denying enemies access to the 
homeland and ultimately neutralizing terrorist networks.

    26. Senator Lee. General Dunford, what are the direct threats to 
U.S. national security currently in Afghanistan?
    General Dunford. Although weakened and pressured by U.S. 
counterterrorism efforts, al Qaeda and its affiliates, especially the 
Haqqani Network, continue to operate in Afghanistan and the region. Al 
Qaeda still holds ambitions to attack the United States and its 
interests. Due to constant pressure from counterterrorism operations, 
al Qaeda is now focused on survival. While they have been reduced to 
numbers much smaller than those before September 11, al Qaeda still 
remains a threat to the United States. Without continued pressure, al 
Qaeda will regenerate and once again directly threaten the United 
States and its interests.

    27. Senator Lee. General Dunford, generally speaking, how will any 
mission beyond 2014 be different than the mission that we are executing 
there today?
    General Dunford. We will transition from conducting operations and 
combat advising to ensuring the current progress is enduring by 
building the long-term sustainability of the Afghan forces. Although 
the Afghans require less support in conducting security operations, 
they still need assistance in maturing the systems, the processes, and 
the institutions necessary to support a modern ANA and ANP. To address 
these areas, a train, advise, and assist mission will be necessary 
after this year to further develop Afghan self-sustainment. ISAF are 
re-orienting from unit-level combat advising to functionally-based 
advising. At the security ministries, this means improving capacity and 
institutionalizing transparent planning, programming, budgeting, and 
acquisition processes. In the fielded force, advisors will focus on 
specific capability gaps in aviation, intelligence, and special 
operations enterprises. At all levels, our advisors will work to 
improve Afghan transparency and accountability of donor resources, and 
development of the ``connective tissue'' which ties the ministerial 
level to the operational and tactical level. A continued 
counterterrorism mission will also be needed to ensure al Qaeda remains 
focused on survival and not on regeneration. Without continued 
counterterrorism pressure, an emboldened al Qaeda will not only begin 
to physically reconstitute but they will also exploit their perceived 
victory to boost recruitment, fund raising, and morale.

                        ministerial development
    28. Senator Lee. General Dunford, how are we measuring the progress 
of the Afghan Government and the ANSF to determine if they still need 
international assistance? That is to say, what accomplishment or 
achievements would lead you to say we no longer need to have forces 
there?
    General Dunford. The ISAF advisory networks within the MoD, MoI, 
and the ANSF measure progress based on eight essential functions:

    1.  Plan, Program, Budget, and Execute; generate requirements, 
develop a resource informed budget, and execute a spend plan
    2.  Internal controls to assure Transparency, Accountability, and 
Oversight
    3.  Civilian governance of the Afghan Security Institutions (ASI), 
including adherence to the rule of law
    4.  Force generate; train, retain, manage, and develop a 
professional ANSF
    5.  Sustain the force through effective facilities management, 
maintenance, medial, and logistics systems
    6.  Plan, resource, and execute effective security campaigns and 
operations

       a.  Inter-ministerial and joint coordination
       b.  Command, control, and employ Ground, Air, and Special 
Operating Forces

    7.  Sufficient intelligence capabilities and processes
    8.  Maintain internal and external strategic communication 
capability

    ISAF forces are re-orienting from unit-level combat advising to 
functionally-based advising. Focus has shifted from building the force 
to building ASI long-term sustainability. At the security ministries, 
this means improving capacity, and institutionalizing transparent 
planning, programming, budgeting, and acquisition processes. At all 
levels within the different security pillars--army, police, and 
intelligence service--advisors are working to improve integration. In 
the fielded force, advisors will focus on specific capability gaps in 
aviation, intelligence, and special operations enterprises. They will 
also focus on developmental shortfalls in areas like logistics, 
medical, and counter-IED. At all levels, our advisors will work to 
improve Afghan transparency and accountability of donor resources, and 
development of the ``connective tissue'' which ties the ministerial 
level to the operational and tactical level.
    Assuming Chicago Summit resources and limited advisory support, our 
mission would be successful when the ASI and ANSF can execute and 
integrate the eight essential functions in order to meet Afghan 
security objectives and serve as an effective counterterrorism partner.

                     insurgent and al qaeda threat
    29. Senator Lee. General Dunford, what is the goal of insurgent 
groups who are fighting against our forces in Afghanistan? Do they seek 
to overthrow and replace the government, carve out and control certain 
territory, or attack the United States and other western targets?
    General Dunford. The overall goal of the Taliban-led insurgency is 
to eject foreign forces, remove the democratically-elected Afghan 
Government, and reestablish the Taliban's Islamic Emirate. Most of the 
other insurgent groups in Afghanistan, while also pursuing localized 
interests, largely support this goal. This includes the Haqqani 
Network, which we assess will seek control over the Paktika, Paktiya, 
and Khost areas of Afghanistan under a Taliban-led government. We have 
no indications the Taliban insurgency has the intent or plans to attack 
the United States or other western targets outside of Afghanistan, and 
we assess they will remain Afghanistan-focused post 2014.

    30. Senator Lee. General Dunford, can you give me details about how 
insurgent groups are recruiting and training fighters to fight against 
Afghan and international forces, including the insurgency's make-up 
according to nationality and if the numbers of insurgents are 
increasing or decreasing?
    General Dunford. Insurgent fighters are largely locally Afghan-
based, and join the Taliban-led insurgency for a multitude of reasons, 
to include: pressure to join out of tribal or family affiliation; a 
sense of religious or national pride to remove foreign forces; money, 
power, or a position of power; a sense of disenfranchisement with the 
current government; or they simply have no other options available to 
them to provide for their families. Other recruits come from religious 
schools or madrassas, some of which are located in Pakistan, where they 
are inculcated with insurgent values and perceptions. Most of the 
training for these recruits occurs in the insurgency's Pakistan 
sanctuary along the Afghanistan-Pakistan border over the winter months, 
where they learn basic small unit tactics and IED construction and 
emplacement. While the insurgency is overwhelmingly Afghan in 
nationality, ethnic Pashtun and Baloch Pakistani nationals have 
contributed recruits. We lack insight into definitive numbers of 
fighters in the insurgency, hindering our ability to accurately assess 
whether recruiting is increasing or decreasing to any significant 
degree. However, we expect a successful election and the transition 
from ISAF to Resolute Support (and the corresponding decrease in 
visibility of foreign forces) will remove several key motives for 
Afghans to join the insurgency.

    31. Senator Lee. General Dunford, what efforts are being made by 
coalition forces and Afghanistan to fight the recruitment and training 
efforts of insurgent forces, and have they been successful?
    General Dunford. The primary efforts to fight recruitment of 
insurgent forces are Afghan led with media campaigns highlighting the 
ANA and ANP to underscore that these are good Afghans and therefore 
provide a stark contrast to the Taliban recruiting efforts. The 
supporting coalition efforts are generally classified. The results are 
captured quarterly through national surveys that ask about Afghans' 
opinions of the Taliban. In March 2014, 76.5 percent indicated that it 
would be bad if the Taliban returned to power, up from 74.9 percent in 
December 2013.

                           regional concerns
    32. Senator Lee. General Dunford, is Pakistan working in a way that 
helps or hinders the mission in Afghanistan, and do you expect their 
behavior to change any as we draw down our troop strength?
    General Dunford. Pakistan both helps and hinders the mission in 
Afghanistan. Prime Minister Sharif's government assumed office in mid-
2013 and has sought to increase engagement with Afghanistan, to include 
multiple direct meetings between President Karzai and Sharif. Islamabad 
has publicly declared its support for GIRoA and the ISAF mission. 
Further, Pakistan is cooperating on ISAF retrograde operations and some 
counterterrorism activities targeting al Qaeda. Pakistan has made some 
progress interdicting and disrupting the production of IED components, 
but still falls short on stemming the flow of these components into 
Afghanistan. Nevertheless, Islamabad allows al Qaeda, the Afghan 
Taliban, and the Haqqani Network sanctuary inside Pakistan. The Taliban 
and Haqqani Network use this sanctuary to launch attacks into 
Afghanistan targeting U.S., coalition, and GIRoA forces. Cross-border 
incidents and lingering mistrust remain points of tension in 
Afghanistan-Pakistan relations and both countries continue to question 
each other's commitments to advancing a political settlement in 
Afghanistan.

    33. Senator Lee. General Dunford, what is your assessment of the 
relationship between the Government of Afghanistan and Iran, separately 
the relationship between the Taliban and Iran, and the influence of 
Iran in the country?
    General Dunford. I believe this question would be best answered by 
CENTCOM.

    34. Senator Lee. General Dunford, do you believe the influence of 
Iran in Afghanistan is undermining U.S. security efforts, and does the 
relationship between the Afghan Government and Iran put our 
servicemembers in danger?
    General Dunford. At the strategic level, Iran's influence in 
Afghanistan is not substantial enough to undermine U.S. security 
efforts. Iran provides calibrated lethal aid and training to 
insurgents, which in turn allows insurgents to threaten U.S. and 
coalition forces at the tactical level. However, Iran is likely 
unwilling to provide enough insurgent support to challenge GIRoA or the 
U.S. overall security efforts. Iran's support to insurgents is likely 
part of Iran's traditional practice to provide support--monetary, 
lethal, and political--to a variety of parties, thus ensuring influence 
in any future Afghan Government. Iran's relationship with the Afghan 
Government is likely driven, in 2014, to curtail or minimize the U.S. 
presence in Afghanistan. While any support Iran provides to the 
insurgency sustains violence against ANSF and ISAF, Iran's relationship 
with Afghan Government does not put our servicemembers in any greater 
danger beyond the established insurgency and insurgent Pakistani 
Taliban.

                          economic assistance
    35. Senator Lee. General Dunford, are we fully accounting for the 
proper use and maintenance of these projects, and much like the ANSF, 
will the Afghan Government eventually be able to financially sustain 
this infrastructure on their own?
    General Dunford. Over the course of a decade, the United States and 
its coalition partners initiated $8.5 billion in new construction 
projects to provide the ANSF adequate facilities to protect the Afghan 
people. Last summer, the ANSF assumed lead for Afghanistan's security 
allowing the coalition to vacate hundreds of temporary facilities. U.S. 
Forces-Afghanistan (USFOR-A) remains committed to being a good steward 
of taxpayers' dollars. In the last year, USFOR-A's actions have saved 
between $600 million to $800 million in planned funding, in part, by 
offsetting new construction with the transfer of these existing 
coalition bases.
    The long lead times in construction have not always kept pace with 
the changing security environment and operational needs of the ANSF. As 
a result, the coalition has completed construction on some 
infrastructure projects that the Afghans are not fully utilizing. Just 
as requirements, priorities, and funding levels evolve, USFOR-A 
constantly reevaluates and adjusts the ANSF infrastructure program to 
meet current basing needs and provide the flexibility to meet a range 
of likely future requirements.
    Our current focus is on helping our Afghan partners develop and 
execute strategies to sustain all these facilities in an affordable 
manner. This Security Force Assistance effort includes building the 
ministerial processes and capabilities of the Afghan security 
institutions, particularly in resource management and facilities 
sustainment. With coalition advisors assistance, our Afghan partners 
are determining sustainment, restoration, and modernization 
requirements. We will continue to advise our efforts as they prioritize 
these requirements and make hard choices of what capabilities they will 
fund in a fiscally constrained environment.

                            afghan elections
    36. Senator Lee. General Dunford, President Karzai will be out of 
office by the end of this year. How closely are you and other military 
and diplomatic leaders working with the candidates who could 
potentially become the next President?
    General Dunford. The U.S. Embassy has been working very closely 
with the candidates.

    37. Senator Lee. General Dunford, do you perceive the transition of 
power to cause much disruption of the day-to-day military cooperation 
between U.S. and Afghan forces?
    General Dunford. Every transition of power requires careful 
attention to continuity. There will be turnover in ANSF leadership as a 
result of the election, although the specifics of that turnover are 
unclear at this time. However, I do not anticipate any major negative 
impact on day-to-day military cooperation. By word and deed we have 
consistently communicated to our Afghan partners that we are entirely 
agnostic about the outcome of the election, our sole objective being a 
secure and inclusive election for the Afghan people. In turn, the ANSF 
have, to date, taken as their duty the very same objective. Because of 
well-established working relationships, based on mutual trust with our 
Afghan partners at all levels, we will continue to meet our challenges 
together while Afghanistan's higher-order political dynamics play out. 
At the same time, indicative of their increasing professionalism, the 
Afghans are developing depth in their leadership, so that even with 
turnover, allowing for adjustments on both sides, I anticipate 
maintaining continuity in military cooperation.

                                funding
    38. Senator Lee. General Dunford, I asked Secretary Hagel last week 
if Overseas Contingency Operations (OCO) funding for Afghanistan would 
be reduced proportionally to the number of troops that remain. He and 
Secretary Hale answered that OCO funding would be reduced, but not at a 
proportional level because of equipment that needs to be retrograded 
and modernized from the conflict. How much do you estimate the removal 
of this equipment from the Afghan theater and the necessary retrograde 
work will cost?
    General Dunford. It will cost approximately $1.52 billion (from the 
date of the question until December 31, 2014) to retrograde remaining 
U.S. equipment from Afghanistan, in accordance with current planning 
assumptions about enduring force presence, size, and disposition. This 
estimate does not include Service-specific costs for reset of 
equipment, second destination costs within the continental United 
States or modernization costs. All of these costs would have to be 
provided independently by the Services and are not estimable by USFOR-
A.

    39. Senator Lee. General Dunford, what proportion of equipment 
coming out of Afghanistan needs to be modernized for future use?
    General Dunford. Service-specific modernization needs for equipment 
coming out of Afghanistan would be best answered by the Services and 
are not estimable by USFOR-A.

    40. Senator Lee. General Dunford, how much has the activity of 
Pakistan over the past several years, such as the closure of the Ground 
Lines of Communication in 2012, increased the cost of equipment 
retrograde?
    General Dunford. I believe this question would be best answered by 
CENTCOM.

    41. Senator Lee. General Dunford, can you provide me with a 
comprehensive analysis about the increase of costs due to Pakistan?
    General Dunford. I believe this question would be best answered by 
CENTCOM.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
